APPENDIX
APPENDIX A
CASE NO.: 19-1466

IN THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

ELET VALENTINE
Plaintiff-Appellant
v.
PNC FINANCIAL SERVICES GROUP, INC.; PNC BANK, NATIONAL
ASSOCIATION (AKA PNC BANK, N.A.); AND PNC MORTGAGE
Defendants-Appellees

On Appeal From The United States District Court
For The District Of Colorado
The Honorable Christine M. Arguello
Case No. 18-cv-01934-CMA-SKC

August 4, 2020

Order Denying Rehearing

BEFORE: Brisco, Matheson, and Eid, Circuit Judges

Appendix A

Volume
1 of 5

Appellate Case: 19-14

Document: 010110386446 Datk. _ad: 08/04/2020 Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

August 4, 2020
Christopher M. Wolpert
Clerk of Court

ELET VALENTINE,
Plaintiff - Appellant,
v.
THE PNC FINANCIAL SERVICES
GROUP, INC., et al.,

Nos. 19-1007 & 19-1466
(D.C. No. 1:18-CV-01934-CMA-SKC)
(D. Colo.)

Defendants - Appellees.

ORDER
Before BRISCOE, MATHESON, and EID, Circuit Judges.
Appellant's motion for reconsideration has been construed as a petition for
rehearing and filed as such as of the date of receipt. So construed, the petition for
rehearing is denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

APPENDIX B
CASE NO.: 19-1466 & 19-1007

IN THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

ELET VALENTINE
Plaintiff-Appellant
v.
PNC FINANCIAL SERVICES GROUP, INC.; PNC BANK, NATIONAL
ASSOCIATION (AKA PNC BANK, N.A.); AND PNC MORTGAGE
Defendants-Appellees

On Appeal From The United States District Court
For The District Of Colorado
The Honorable Christine M. Arguello
Case No. 18-cv-01934-CMA-SKC

July 14, 2020

Order and Judgment

BEFORE: Brisco, Matheson, and Eid, Circuit Judges

Appendix B

Appellate Case: 19-14,

Document: 010110375887 Date 4d:.07/14/2020 Page:. 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

FILED
United States Court of Appeals
Tenth Circuit
July 14, 2020
Christopher M. Wolpert
Clerk of Court

ELET VALENTINE,

Plaintiff - Appellant,
v.
THE PNC FINANCIAL SERVICES
GROUP, INC.; PNC BANK, NATIONAL
ASSOCIATION, a/k/a PNC Bank, NA;
PNC MORTGAGE,

Nos. 19-1007 & 19-1466
1:18-CV-01934-CMA-SKC)
No.
(D.C.
(D. Colo.)

Defendants - Appellees.
ORDER AND JUDGMENT*
Before BRISCOE, MATHESON, and EID, Circuit Judges.
Elet Valentine, appearing pro se, appeals from the district court's orders
denying her motion for a preliminary injunction (No. 19-1007) and dismissing her
action with prejudice as a sanction (No. 19-1466). Exercising jurisdiction under
28 U.S.C. § 1291, we affirm the order in No. 19-1466 and dismiss No. 19-1007 as
moot.
* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
these appeals. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The cases are
therefore ordered submitted without oral argument. This order and judgment is not
binding precedent, except under the doctrines of law of the case, res judicata, and
collateral estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appellate Case: 19-146. Document: 010110375887 Date .d: 07/14/2020 Page: 2

BACKGROUND
This case arises from a dispute between Ms. Valentine and PNC Financial
Services Group, Inc., PNC Bank, N.A., and PNC Mortgage (collectively "PNC")
concerning her default on a residential mortgage loan and subsequent foreclosure
proceedings. In 2018, a Colorado state court issued an order authorizing the sale of
Ms. Valentine's home. While the foreclosure proceedings were pending,
Ms. Valentine filed suit in the United States District Court for the District of
Colorado alleging eleven claims for relief. She also asked the court to issue a
preliminary injunction to prevent the sale of her home and require PNC to preserve
documents pending determination of the merits. The court denied the motion, and
Ms. Valentine appealed, which is No. 19-1007 (the "Injunction Appeal").
Following the denial of preliminary injunctive relief, PNC sold the property
and moved to dismiss the Injunction Appeal as moot. Immediately thereafter,
Ms. Valentine filed an amended notice of appeal in which she attempted to appeal
from several procedural orders. PNC moved to dismiss the amended notice arguing
that none of the orders were final and therefore could not be appealed.
While the Injunction Appeal was pending, PNC filed a motion to dismiss
Ms. Valentine's amended complaint. The magistrate judge issued a recommendation
to dismiss all claims except Ms. Valentine's breach of contract claim. The magistrate
judge further rejected Ms. Valentine's argument that the pending Injunction Appeal
divested the court of jurisdiction. The district court adopted the recommendation,
noting Ms. Valentine did not challenge the magistrate judge's substantive analysis;
2

Appellate Case: 19-146

Document: 01.0110375887 Date. .:d:.07/14/2020 Page: 3

instead, she continued to maintain the pending. Injunction Appeal divested the court
of jurisdiction.
Shortly thereafter, the magistrate judge set a status conference and asked PNC
to take the lead in preparing a draft proposed scheduling order. Days later,
Ms. Valentine filed yet another amended notice of appeal in the Injunction Appeal in
which she tried to expand the scope of the appeal to include the district court's order
to dismiss all but one of Ms. Valentine's claims. This court deemed the amended
notice was a new appeal and assigned it No. 19-1350 (the "Second Appeal").
In the meantime, Ms. Valentine refused to follow the magistrate judge's order
to work with PNC to develop a scheduling order. Despite Ms. Valentine's failure to
participate, PNC timely filed a proposed order and further asked the court to find the
Second Appeal was frivolous.
On the day set for the status conference, the magistrate judge waited fifteen
minutes after the scheduled start time, but Ms. Valentine failed to appear. He set a
further conference in three weeks and warned Ms. Valentine she must appear or risk
dismissal of her suit.
A few days later, the district court entered an order certifying the Second
Appeal as frivolous: "Because it is obvious [that an order dismissing some but not
all of Ms. Valentine's claims] is not appealable, the Court hereby certifies the
[Second Appeal] as frivolous. As a result, this Court retains jurisdiction to consider
the merits of this case." No. 19-1466, R., Vol. 5 at 114 (footnote omitted).

3

Appellate Case: 19-146L Document: 010110375887 Date .d: 07/14/2020 Page: 4

Undeterred, Ms. Valentine filed motions to reconsider the magistrate judge's
order setting a further status conference and the court's order certifying the Second
Appeal as frivolous. The court denied both motions, explaining once again that it
had jurisdiction, and issuing another warning to Ms. Valentine to comply with the
court's orders or face dismissal.
When Ms. Valentine failed to appear at the second status conference, the
magistrate judge entered a written recommendation to dismiss the case with
prejudice. The district court overruled Ms. Valentine's objections and adopted and
affirmed the recommendation. As backdrop, the court outlined Ms. Valentine's
failure to comply with the court's orders and "meaningfully engage in the litigation
process," along with her refusal to "accept any interpretation of the law other than
her own." Id. at 196. "The Court has had enough." Id. at 197.
Using the five factors announced in Ehrenhaus v. Reynolds, 965 F.2d 916, 921
(10th Cir. 1992)—namely "(1) the degree of actual prejudice to the defendant; (2) the
amount of interference with the judicial process; (3) the culpability of the litigant;
(4) whether the court warned the party in advance that dismissal of the action would
be a likely sanction for noncompliance; and (5) the efficacy of lesser sanctions"
(internal quotation marks, ellipsis, and citations omitted)—the district court
determined dismissal as a sanction was appropriate.
As to the first factor, the court noted Ms. Valentine's "conduct has resulted in
substantial prejudice to [PNC]," No. 19-1466, R., Vol. 5 at 199. "[PNC]

ha[s] been

diligent in [its] attempt[] to bring this litigation to a close, but these efforts have been
4

Appellate Case: 19-146. Document: 010110375887 Date Al: 07/14/2020 Page: 5

stymied by Ms. Valentine's disregard for hearings and Court Orders." Id. (internal
quotation marks omitted). "In addition to being deprived of any finality in this
matter, [PNC] ha[s] also expended considerable resources in what has become a
futile effort to move this case forward." Id. at 199-200.
Regarding the second factor, the court found Ms. Valentine's "conduct has
stalled the judicial process." Id. at 200. "[Ms. Valentine's] refusal to comply with
court orders has inhibited the Court's ability to perform straightforward tasks." Id.
"Moreover, [her] refusal to recognize this Court's authority to interpret the law has
forced the Court to expend valuable time in an unnecessary and repetitive exercise of
explaining to [her] why her frivolous arguments regarding this Court's jurisdiction
are incorrect." Id. "This Court has limited resources and an extensive docket.
Accordingly, the consequences that result from [Ms. Valentine's] ongoing
interference with the judicial system cannot be understated." Id.
Considering the third factor, the court found Ms. Valentine "is culpable for her
conduct," noting "[e]ven after [she] filed her second Notice of Appeal and stopped
appearing at proceedings . . . [the] Magistrate Judge . . . and this Court provided [her]
with multiple detailed explanations of the legal principles that refute her position
regarding . . . jurisdiction." Id. "Nevertheless, [Ms. Valentine] has remained
obstinate, and her choice to maintain her strategy under the circumstances shows that
her conduct is intentional." Id.
As to the fourth factor, the court found Ms. Valentine "had ample notice of the
possibility of dismissal due to her conduct." Id. at 201. And regarding the final
5

Appellate Case: 19-146L Document: 010110375887 Date . -d: 07/14/2020 Page: 6

factor, the court found "[s]anctions less than dismissal with prejudice would not be
effective," noting an award of attorney fees against Ms. Valentine "based on her
frivolous attempt to remove a [separate] case to federal court" was an ineffective
deterrent against her "insistence on pursuing arguments even after they have been
demonstrated to be frivolous." Id. The Court also found "that sanctions other than
dismissal with prejudice are unlikely to change what [the] Magistrate Judge . . .
correctly described as [Ms. Valentine's] willful bad faith in repeatedly disregarding
the Court's rules and orders." Id. (internal quotation marks omitted).
Ms. Valentine filed a notice of appeal from the district court's entry of a final
judgment dismissing the case as a sanction, which is No. 19-1466 (the "Sanction
Appeal"). Shortly thereafter, this Court dismissed the Second Appeal for lack of
jurisdiction.
SANCTION APPEAL
"The Federal Rules of Civil Procedure authorize sanctions, including
dismissal, for failing to appear at a pretrial or scheduling conference . . . and for
failing to comply with court rules or any order of the court." Gripe v. City of Enid,
312 F.3d 1184, 1188 (10th Cir 2002). "We review for an abuse of discretion the
district court's decision to impose the sanction of dismissal for failure to follow court
after
orders and rules." Id. "It is within a court's discretion to dismiss a case if,
considering all the relevant factors, it concludes that dismissal alone would satisfy
court considered
the interests of justice." Ehrenhaus, 965 F.2d at 918. The district

6

Appellate Case: 19-14E,

Document: 010110375887 Date,

'd:

07/14/2020 Page:.7

the relevant factors in deciding to dismiss Ms. Valentine's case, and its decision was
not an abuse of discretion.
But Ms. Valentine does not challenge the merits of the district court's sanction
order; instead, she maintains the court lacked jurisdiction to enter any orders upon
the filing of her Injunction Appeal and Second Appeal, including the sanction order.
Ms. Valentine is mistaken.
An appeal from, an interlocutory order denying a preliminary injunction does
not divest the district court of jurisdiction to proceed with the underlying action on
the merits. See Colorado v. Idarado Mining Co., 916 F.2d 1486, 1490 & n.2
(10th Cir. 1990). Likewise, "so long as the district court takes the affirmative step of
certifying an appeal as frivolous or forfeited, it retains jurisdiction." McCauley v.
Halliburton Energy Servs., Inc., 413 F.3d 1158, 1162 (10th Cir. 2005). Because the
court certified Ms. Valentine's Second Appeal as frivolous, it retained jurisdiction.
Last, Ms. Valentine incorporates by reference her arguments in a proposed
supplement to her opening brief in the Injunction Appeal concerning eight alleged
procedural errors committed by the district court. Whether to accept the proposed
supplement was referred to this panel. We grant Ms. Valentine's motion to file the
proposed supplement but deny the arguments in view of our ruling on the dispositive
issue—the district court did not abuse its discretion in dismissing Ms. Valentine's
case as a sanction for her failure to comply with the court's orders. The issues in the
supplement, which include whether PNC's motion to dismiss was timely filed and
whether the court properly denied Ms. Valentine's motion to file a second amended
7

Appellate Case: 19-141

Document: 010110375887 Date.

Jd: 07/14/2020 Page:.8

complaint, do not "affect the outcome[,]" and therefore, "[w]e will not undertake to
decide [them]." Griffin v. Davies, 929 F.2d 550, 554 (10th Cir. 1991).
INJUNCTION APPEAL
Ms. Valentine's appeal from the denial of the preliminary injunction is mooted
by the fact that the district court proceeded to adjudicate the underlying action on the
merits. When a court proceeds to adjudicate the merits of the underlying action and
enters a final judgment, an appeal from the denial of a preliminary injunction is moot
because a preliminary injunction is by its nature a temporary measure intended to
furnish provisional protection while awaiting a final judgment on the merits. See
United States ex rel. Bergen v. Lawrence, 848 F.2d 1502, 1512 (10th Cir. 1988).
CONCLUSION
We affirm the district's court's order in No. 19-1466. We deny
Ms. Valentine's motion to reconsider this court's order denying her motion to
consolidate.
We dismiss No. 19-1007 as moot. We grant Ms. Valentine's motions to file a
supplement to her opening brief and to extend the time for filing that supplement, and
we direct the Clerk to file the supplement as of the date it was received. We deny
Ms. Valentine's motions to: (1) reconsider this court's order to supplement the
record; (2) preserve the record; (3) oppose PNC's entry of appearance; and

8

Appellate Case: 19-14,

Document: 010110375887 DatL .ed: 07/14/2020 Page: 9

(4) reconsider this court's order denying her motion to consolidate. We deny PNC's
motions to dismiss the appeal and amended notice of appeal as moot.
Entered for the Court
Allison H. Eid
Circuit Judge

9

APPENDIX C
CASE NO.: 19-1350

IN THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

ELET VALENTINE
Plaintiff-Appellant
v.
PNC FINANCIAL SERVICES GROUP, INC.; PNC BANK, NATIONAL
ASSOCIATION (AKA PNC BANK, N.A.); AND PNC MORTGAGE
Defendants-Appellees

On Appeal From The United States District Court
For The District Of Colorado
The Honorable Christine M. Arguello
Case No. 18-cv-01934-CMA-SKC

ORDER [Dismissing Appeal For Lack Of Jurisdiction]

DECEMBER 13, 2019

BEFORE: LUCERO, HARTZ, AND HOLMES

Appendix C

Appellate Case: 19-1::.

Document: 01: 0110274529 Dal... iled: 12/13/2019 Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

December 13, 2019
Elisabeth A. Shumaker
Clerk of Court

ELET VALENTINE,
Plaintiff - Appellant,
v.
PNC FINANCIAL SERVICES GROUP,
INC.; PNC BANK, NATIONAL
ASSOCIATION, a/k/a PNC Bank, NA;
PNC MORTGAGE,

No. 19-1350
(D.C. No. 1:18-CV-01934-CMA-SKC)
(D. Colo.)

Defendants - Appellees.

ORDER
Before LUCERO, HARTZ, and HOLMES, Circuit Judges.
This matter is before us on Appellant Elet Valentine's response to the court's
order to show cause why this appeal should not be dismissed for lack of jurisdiction. In
this appeal, Ms. Valentine seeks to challenge the district court's order of August 30, 2019
adopting a magistrate judge's recommendation to dismiss all but one of Ms. Valentine's
claims.
Generally, this court's jurisdiction is limited to review of final decisions of the
district courts. 28 U.S.C. § 1291. A final decision is one that reflects the disposition of
all claims and the rights and liabilities of all parties. Fed. R. Civ. P. 54(b). The district
court's order dismissing all but one of Ms. Valentine's claims is not a final order. Nor is

Appellate Case: 19-1,

Document: 01:0110274529 Dat.. iled::12/13/2019 Page: 2

it immediately appealable under the collateral order doctrine, as Ms. Valentine contends,
because it did not resolve a question "collateral to" the merits, and it is reviewable upon
entry of final judgment. See United States v. Copar Pumice Co., Inc., 714 F.3d 1197,
1204 (10th Cir. 2013) (setting forth the requirements of the collateral order doctrine).
Indeed, we note that the district court has since entered final judgment in the underlying
case, and Ms. Valentine has appealed that judgment. Ms. Valentine's remaining
arguments in response to the order to show cause are unavailing.
This appeal is dismissed for lack of jurisdiction. Ms. Valentine's motion to
consolidate this appeal with Appeal No. 19-1.007 is denied as moot.
Entered for the Court
ELISABETH A. SHUMAKER, Clerk

by: Jane K. Castro
Counsel to the Clerk

2

APPENDIX D
CASE NO.: 19-1350

IN THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO

ELET VALENTINE
Plaintiff-Appellant
v.
PNC FINANCIAL SERVICES GROUP, INC.; PNC BANK, NATIONAL
ASSOCIATION (AKA PNC BANK, N.A.); AND PNC MORTGAGE
Defendants-Appellees

ORDER CERTIFIYING APPEAL AS FRIVOLOUS AND DENYING
PLAINTIFF'S MOTION FOR RECONSIDERATION
Case No. 18-cv-01934-CMA-SKC

OCTOBER 9, 2019

BEFORE: JUDGE CHRISTINE M. ARGUELLO

Appendix D

Case 1:18-cv-01934-CMP-cKC Document 103 Filed 10/09/19 ' JSDC Colorado Page 1 of 5
Appellate Case:. 19-13.

Document: 010110243012 Date. ,red: 10/10/2019 Page: 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Christine M. Arguello
Civil Action No. 18-cv-01934-CMA-SKC
ELET VALENTINE,
Plaintiff,
v.
THE PNC FINANCIAL SERVICES GROUP, INC.,
PNC BANK, NATIONAL ASSOCIATION, a/k/a PNC Bank, NA, and
PNC MORTGAGE,
Defendants.

ORDER CERTIFYING APPEAL AS FRIVOLOUS AND DENYING
PLAINTIFF'S MOTION FOR RECONSIDERATION

This matter is before the Court on Plaintiff Elet Valentine's Second Amended
Notice of Appeal (Doc. # 97) and Motion for Reconsideration (Doc. # 96) of this Court's.
Order Adopting and Affirming August 1, 2019 Recommendation of United States
Magistrate Judge (Doc. # 94). Based on the reasons that follow, the Court certifies
Plaintiff's latest appeal as frivolous and denies Plaintiff's Motion for Reconsideration.
I.

BACKGROUND

The Court recently recounted the facts of this case in its Order adopting
Magistrate Judge Crews' Recommendation. See (Id.). Accordingly, the Court will
reiterate the factual background only to the extent necessary to address Plaintiff's
Motion.

Case 1:18-cv-01934-CMP —KC Document 103 Filed 10/09/19 ' ISDC Colorado Page 2 of 5
Appellate Case: 19-13t,_ Document: 010110243012 Dat6 .ed: 10/10/2019 Page: 2

On August 2, 2018, Plaintiff, acting pro se, filed a Motion for an Ex Parte
Temporary Restraining Order or Preliminary Injunction which sought to enjoin
Defendants' foreclosure on her home and to preserve evidence. See generally (Doc. #
6). This Court denied Plaintiff's Motion, and Plaintiff appealed that decision. (Doc. ## 71,
73.)
Subsequently, Magistrate Judge Crews issued a Recommendation in which he
concluded, inter alia, that this Court should grant in part and deny in part Defendants
PNC Financial Services Group, Inc., PNC Bank, N.A, and PNC Mortgage's
("Defendants") Motion to Dismiss Plaintiff's Amended Complaint. (Doc. # 92 at 28-29.)
On August 30, 2019, this Court affirmed the Recommendation after conducting a de
novo review of Plaintiff's objections. (Doc. # 94.) Thus, the Court denied the Motion to
Dismiss as to Plaintiff's breach of contract claim which is based on the theory that
Defendants failed to .properly apply and credit her loan payments. However, the Court
granted the Motion to Dismiss as to as to the remaining claims in Plaintiffs Amended
Complaint. (Id. at 6.)
On September 10, 2019, Plaintiff filed a document titled Second Amended Notice
of Appeal (Doc. # 97) regarding this Court's August 30 Order. Additionally, on
September 12, 2019, Plaintiff filed a Motion for Reconsideration of the same Order.
(Doc. # 96.)
II.

DISCUSSION

Before proceeding to the merits of Plaintiff's Motion for Reconsideration, the
Court must consider its jurisdiction because Plaintiff has filed multiple notices of appeal

2

Case 1:18-cv-01934-CMP-cKC Document 103 Filed 10/09/19 11SDC Colorado Page 3 of 5
Appellate Case: 19-13,

Document: 010110243012 Datk. .ed: 10/10/2019 Page: 3

in this case. See Amazon, Inc. v. Dirt Camp, Inc., 273 F.3d 1271, 1276 (10th Cir. 2001)
("A federal court has an independent obligation to examine its own jurisdiction.").
A.

THIS COURT RETAINS JURISDICTION
Applicable Law
"The filing, of a notice of appeal is an event of jurisdictional significance—it

confers jurisdiction on the court of appeals and divests the district court of its control
over those aspects of the case involved in the appeal." Griggs v. Provident Consumer
Discount Co., 459 U.S. 56, 58 (1982). However, the Tenth Circuit has held that:
Because this divestiture of jurisdiction is subject to abuse and can
unreasonably delay trial, we recognized in Stewart v. Donges, 915 F.2d
572 (10th Cir. 1991) a procedure by which a district court may maintain
jurisdiction [in] a [case] if the court certifies that [an] appeal is frivolous..
Langley v. Adams Cnty., Colo., 987 F.2d 1473, 1477 (10th Cir. 1993). Specifically, "to
regain jurisdiction, [a district court] must take the affirmative step of certifying the appeal
as frivolous or forfeited . . ." Stewart, 915 F.2d at 577. An appeal is frivolous if "the
result is obvious or . . . the appellant's arguments are wholly without merit." Barnes v.
Sec. Life of Denver Ins. Co., No. 18-cv-718-WJM-SKC, 2019 WL 142113, at *2 (D.
Colo. Jan. 9, 2019) (citation omitted).
Analysis
Plaintiff's Second Amended Notice of Appeal is frivolous. It is well established
that "federal circuit courts have jurisdiction to review only 'final decisions' of district
courts." Spring Creek Expl. & Prod, Co., LLC v. Hess Bakken Inv., II, LLC, 887 F.3d
1003, 1015 (10th Cir. 2018) (citation omitted); 28 U.S.C. § 1291. A "final decision must
dispose of all claims by all parties, except a decision may otherwise be considered final
3

Case 1:18-cv-01934-CMA QKC Document 103 Filed 10/09/19 '1SDC Colorado Page 4 of 5
Appellate Case: 19-13,

Document: 0101102430.1:2 Datt. ,ed: 10/10/2019 Page: 4

if it is properly certified as a final judgment under Federal Rule of Civil Procedure 54(b)."
New Mexico v. Trujillo, 813 F.3d 1308, 1316 (10th Cir. 2016).
In the instant case, this Court's Order Adopting and Affirming August 1, 2019
Recommendation of Untied States Magistrate Judge did not dispose of all of Plaintiff's
claims. See (Doc. # 94 at 6). Therefore, the Order is not a final decision for purposes of
28 U.S.C. § 1291. Moreover, the Court has not certified the Order as a final judgment
pursuant to Federal Rule of Civil Procedure 54. Accordingly, the Order is not
appealable.
Because it is obvious from a review of the docket that this Court's Order is not
appealable, the Court hereby certifies Plaintiff's Second Amended Notice of Appeal
(Doc. # 97) as frivolous.' As a result, this Court retains jurisdiction to consider the merits
of this case. Stewart, 915 F.2d at 577.
B.

PLAINTIFF'S MOTION FOR RECONSIDERATION
Plaintiff's Motion for Reconsideration is lacking in merit. The Motion asserts the

same arguments that Plaintiff raised in her Objection (Doc. # 93) to Magistrate Judge
Crews' Recommendation. The Court addressed those arguments in its Order adopting
the Recommendation. See (Doc. # 94 at 4-5). Moreover, "[a] motion for reconsideration
is not appropriate to revisit issues alread addressed or advance arguments that could

I To the extent that Plaintiff asserts that her irhitial appeal of this Court's denial of her motion for
preliminary injunctive relief divested this Cou of jurisdiction, the Court reiterates that "[a]lthough
the filing of a notice of appeal ordinarily divesIts the district court of jurisdiction, in an appeal from
an order granting or denying a preliminary inj nction, a district court may nevertheless proceed
to determine the action on the merits." (Doc. 94 at 5) (quoting (Doc. # 92 at 3 n.1) (Magistrate
Judge Crews' Recommendation) (quoting Fr e Speech v. Fed. Election Comm'n, 720 F.3d 788,
791 (10th Cir. 2013))).

Case 1:18-cv-01934-CMP-SKC Document 103 Filed 10/09/12 JSDC Colorado Page 5 of 5
Appellate Case:. 19-1:-,

Document: 0101102430.12 Dat.. tied: 10/10/201.9 Page 5

have been raised in prior briefing." Gebremedhin v. Am. Family Mut. Ins. Co., No. 13-cv02813-CMA-BNB, 2016 WL 7868815, at *1 (D. Colo. Feb. 5, 2016).
III.

CONCLUSION

Based on the foregoing, the Court FINDS that Plaintiff's Second Amended Notice
of Appeal (Doc. # 97) is frivolous. Consequ6ntly, this Court retains jurisdiction in this
case. Additionally, the Court ORDERS that Plaintiffs Motion for Reconsideration (Doc. #
96) is DENIED.

DATED: October 9, 2019
BY THE COURT:

n 0, ALDto

CHRISTINE M. pG LLO
United States District Judge

5

APPENDIX E
CASE NO.: 19-1350

IN THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

ELET VALENTINE
Plaintiff-Appellant
v.
PNC FINANCIAL SERVICES GROUP, INC.; PNC BANK, NATIONAL
ASSOCIATION (AKA PNC BANK, N.A.); AND PNC MORTGAGE
Defendants-Appellees

On Appeal From The United States District Court
For The District Of Colorado
The Honorable Christine M. Arguello
Case No. 18-cv-01934-CMA-SKC

Minute Order: Determined New Case not Second Notice of Appeal for Case No.
19-1007

SEPTEMBER 10, 2019

BEFORE: Clerk: U.S. Court of Appeals

Appendix E

11/1/2020

CM/ECF - U.S. District Court:cod

—LMTN,JD1,MJ CIV PP,TERMED

U.S. District Court - District of Colorado
District of Colorado (Denver)
CIVIL DOCKET FOR CASE #: 1:18-cv-01934-CMA-SKC
Valentine v. PNC Financial Services Group, Inc., The et al
Assigned to: Judge Christine M. Arguello
Referred to: Magistrate Judge S. Kato Crews
Case in other court: USCA, 19-01007
USCA, 19-01350
USCA, 19-01466
Cause: 42:1981 Civil Rights

Date Filed: 07/30/2018
Date Terminated: 11/13/2019
Jury Demand: Plaintiff
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

Plaintiff
Elet Valentine

represented by Elet Valentine
3273 South Truckee Way
Aurora, CO 80013
720-750-2234
PRO SE

V.
Defendant
PNC Financial Services Group, Inc., The

represented by Matthew A. Morr
Ballard Spahr LLP-Denver
1225 Seventeenth Street
Suite 2300
Denver, CO 80202-5596
303-292-2400
Fax: 303-296-3956
Email: morrm@ballardspahr.com
ATTORNEY TO BE NOTICED
Patrick H. Pugh
Ballard Spahr, LLP-Denver
1225 Seventeenth Street
Suite 2300
Denver, CO 80202-5596
303-292-2400
Fax: 303-296-3956
Email: pughp@ballardspahr.com
TERMINATED: 07/01/2019

Defendant
PNC Bank, National Association
also known as
PNC Bank, N.A.

represented by Matthew A. Morr
(See above for address)
ATTORNEY TO BE NOTICED
Patrick H. Pugh

https://ectcod.uscourts.gov/cgi-bin/DktRpt.pl?35055141483547-L_1_0-1

1/2

11/1/2020

CM/ECF - U.S. District Court:cod

(See
e for address)
TERMINATED: 07/01/2019
Defendant
PNC Mortgage

represented by Matthew A. Morr
(See above for address)
ATTORNEY TO BE NOTICED
Patrick H. Pugh
(See above for address)
TERMINATED: 07/01/2019

Date Filed
09/10/2019

#

Docket Text

97 NOTICE OF APPEAL by Plaintiff Elet Valentine. (USCA Case No. 19-1007) (evana, )
(Modified on 9/17/2019 after review by the circuit, it was determined that this is a new
Notice of Appeal as opposed to Second Amended Notice of Appeal)(evana, ). (Entered:
09/16/2019)

PACER Service Center
Transaction Receipt
11/01/2020 04:46:00
PACER
Login:

etvalentine:5661717:0

Client
Code:

Description: Docket Report

1:18-cv-01934-CMASearch SKC Starting with
Criteria: document: 97 Ending
with document: 97

Billable
Pages:

Cost:

2

https://ectcod.uscourts.gov/cgi-bin/DktRpt.pl?35055141483547-L_1_0-1

0.20

2/2

APPENDIX F
CASE NO.: 19-1007

IN THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

ELET VALENTINE
Plaintiff-Appellant
v.
PNC FINANCIAL SERVICES GROUP, INC.; PNC BANK, NATIONAL
ASSOCIATION (AKA PNC BANK, N.A.); AND PNC MORTGAGE
Defendants-Appellees

On Appeal From The United States District Court
For The District Of Colorado
The Honorable Christine M. Arguello
Case No. 18-cv-01934-CMA-SKC

SECOND AMENDED NOTICE OF APPEAL

SEPTEMBER 10, 2019

BEFORE: CLERK: U.S. DISTRICT COURT

Appendix F

Case 1:18-cV-01934-CMA-KC Dodument 97 " Filed "09/10/19

,SDC Colorado Page 1 of 5

FILED
U.S. DISTRICT COURT
DISTRICT OF COLORADO

2019 SEP 10 Ph 12: 55
IN THE UNITED STATES DISTRICT COURT,
EY P fi,01..WELL
. FOR THE DISTRICT OF COLORADO " GLE.P.tt
- BY

DEP. CLK

Civil Action No.: 18-cv-01934-CMA-SKC
ELET VALENTINE,
Plaintiff
v.
PNC FINANCIAL SERVICES GROUP,
INC., PNC BANK, NATIONAL
ASSOCIATION and'PNC MORTGAGE
Defendants(s)
SECOND AMENDED NOTICE OF APPEAL
•
Notice is hereby given that, Elet Valentine, Appellant/Petitioner in the above
named case, hereby submits Second Amended Notice of Appeal to the United States
Court of Appeals for the Tenth Circuit from the. late filing of the.order Adopting
and Affirming August 1, 2019, Recommendation of United States Magistrate Judge
[Doc #94] entered on August 30. 2019, and the Recommendation of U.S. Magistrate
Judge RE: Motion To Dismiss [ECF #40] & Motion To Amend [#67] [Doc #92]
entered on August 1, 2019.
It is further reqUested that this Second Amended"Notice of Appeal be
consolidated with the previous Notice of Appeal. filed on January 8, 2019, and the
Amended Notice of Appeal filed on January 18, 2019. All notices including this
Page 1 of 5

Case 1:18=cv-01934-CMP-SKC ' Document 97 Flied 09/10/19 "SDC.ColOrado Page 2 of 5

'

•

Second Amended Notice of Appeal are all timely filed- pursuant to Fed. R. App. P.
Rule 4(a)(1)(A) and Fed. R. App. P. Rule 4(a)(3). Subjects discussed (i.e..Defendants
Motion to Dismiss [Doc#40] and Second Amended Complaint [#67] are the subjects
of [Doc # 92] and [DOc #94] which is currently under appeal and Appellate bfiefs
have been submitted on both these subjects.

Respectfully Submitted, .

Dated this 10 day. of September 2019

Signature:

a
Elet Valentine, Pro Se
P.O. Box 390281
Denver, CO 80239
etvaleritine@live.com
876-865-3048

t

Page 2 of 5

1 4

Case 1:18-cv-01934-CMP-SKC Document 97 Filed 09410/19 ''SEC COlorado Page 3 of 5

Certificate of Service
I certify that on- (date) September 10, 2019, I filed this Second Amended Notice of
Appeal with The United States District Court.for The District of Colorado. I sent a
copy, along with any attachments, to the people listed below in accordance with•(Rule
5(d)(1):
• Sent by (Check One):

ORE In-Person Hand Delivery Fax U Email

Name of Party Served: Matthew A. Morr,
Registiation Number: 35913
Firm: Ballard Spahr, LLP
Address: 1225 17th Street, Ste 2300
Denver, CO 80202
Phone -Number: 303:292-2400
Fax Number: 303-296-3956
E-Mail Address: morrm@ballardspahr.com
,PWC -FINANCIAL SERVICES GROUP, INC
Original File&
Jeffery P.,Colwell, Clerk ,
Alfred A. Arraj United States Court
901 19th Street, Room A105;.
Denver, CO 80294-3589
303-844-3433
Signature:
Elet Valentine; Pro Se
P.O. Box 390281
Denver, CO 80239'
etvalentine@live.com
876-865-3048

'Page 3 of 5

Cas61:18-cv-01:934:CMA;SKC OoEumerit 97' Filed 09/101.19 ' 1 8DC'CipldracfO Page-4 of 5
11,

Certificate of Service
I certify that on (date) September 10, 2019, I filed this Second Amended Notice of
Appeal with The United States District Court for The District of Colorado. I sent a
copy, along with any attachments, to the peOple listed below'in accordance with (Rule
5(d)(1):
Sent by (Check One): g v.s: Mail• OR In-Pe'rson Hand Delivery U Fax U Email
Name of Party Served: Matthew A. Mori,
Registration Number: 35913
Pirni'Ballard Spahr, LLP
Address: 1225 17th Street, Ste 2300
Denver, CO 80202
Phone Number: 303-292-2400
Fax Number: 303-296-3956
E-Mail Address: 'morrm@ballardspahr.om
PNC BANK, NATIONAL ASSOCIATION (AKA PNC BANK, N.A.)
Original Filed:
Jeffery P. Colwell, Clerk
Alfred A. Arraj United StatFs'Court
901 19th Street, Room A105
Denver, CO 80294-3589
303-844-34S3
Signature:
Elet Vilentine, Pro Se
P.Q. Box 390281
Denver, CO 80239
etvalentine@live.cOm
876-865-3048

4.

Page 4 of 5

Case 1:18-cv-01934-CMA-SKC Document 97 Filed 09/10/19 ' ISDC Colorado Page 5 of-5

Certificate of Service
I certify that on (date)September 10, 2019, I filed this Second Amended Notice of
Appeal with The United States District Court for The District of Colorado. I sent a
copy, along with any attachments, to the people listed below in accordance With (Rule
5(d)(1):
Sent by (Check One): U.S. Mail; ORO In-Person Hand Delivery Fax

2 Email

Name of Party Served: Matthew A.' Morr,
Registration Number: 35913
Firm: Ballard Spahr, LLP
Address:1225 17th Street, Ste 2300
Denver, CO 80202
Phone Number: 303-292-2400
Fax Number: 303-296-3956
E-Mail Address: morrm@ballardspahr.com
PNC MORTGAGE

Original Filed:
Jeffery P. Colwell, Clerk
Alfred A. Arraj United States Court
901 19th Street, Room A105
Denver; CO .80294-3589,
303-844-3433
Signature:
Elet Valentine, Pro Se
P.O. Box 390281
Denver, CO 80239
etvalentine@live.com
876-865-3048
Page 5 of 5

APPENDIX G
CASE NO.: 19-1007

IN THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

ELET VALENTINE
Plaintiff-Appellant
v.
PNC FINANCIAL SERVICES GROUP, INC.; PNC BANK, NATIONAL
ASSOCIATION (AKA PNC BANK, N.A.); AND PNC MORTGAGE
Defendants-Appellees

On Appeal From The United States District Court
For The District Of Colorado
The Honorable Christine M. Arguello
Case No. 18-cv-01934-CMA-SKC

SEPTEMBER 12, 2019

ORDER: GRANTING "REQUEST TO FILE SUPPLEMENTAL OPENING
BRIEF"

BEFORE: CLERK: U.S. COURT OF APPEALS
Appendix G

Appellate Case: 19-100.

Document: 010110227339 Date —.ad: 09/12/2019 Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

September 12, 2019
Elisabeth A. Shumaker
Clerk of Court

ELET VALENTINE,
Plaintiff - Appellant,
v.
THE PNC FINANCIAL SERVICES
GROUP, INC.; PNC BANK, NATIONAL
ASSOCIATION, a/k/a PNC Bank, NA;
PNC MORTGAGE,

No. 19-1007
(D.C. No. 1:18-CV-01934-CMA-SKC)
(D. Colo.)

Defendants - Appellees.

ORDER

On September 10, 2019, appellant filed a "Request to File a Supplement to
Opening Brief." Appellant is instructed to re-file the "request" with the proposed
supplement attached no later than October 9, 2019.
Entered for the Court

ELISABETH A. SHUMAKER, Clerk

APPENDIX H
CASE NO.: 19-1466

IN THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

ELET VALENTINE
Plaintiff-Appellant
v.
PNC FINANCIAL SERVICES GROUP, INC.; PNC BANK, NATIONAL
ASSOCIATION (AKA PNC BANK, N.A.); AND PNC MORTGAGE
Defendants-Appellees

On Appeal From The United States District Court
For The District Of Colorado
The Honorable Christine M. Arguello
Case No. 18-cv-01934-CMA-SKC

JULY 29, 2020

RECONSIDERATION - COURT GROSS MATERIAL
(REQUEST FOR REHEARING)

BEFORE: CLERK: U.S. CLERK OF APPEALS

Appendix H

Appellate Case: 19-14

Document: 010110384723 Datt. . tied: 07/30/2020 Page: 1
c iz1V 6: D.
Co ti RT OF APPEALS
10TH CI R(..;1)
, ;T

Appeal No. 19-1466

20211 JUL 29 PH 2=.50
UNITED STATES COURT OF APPEALS FOR. THE 'TENTH CIRCUIT

ELET VALENTINE,
Appellan t/Petitioner
V.

• RESONCIDERATION
COURT GROSS MATERIAL
ERROR

PNC FINANCIAL SERVICES GROUP,
INC., PNC BANK, NATIONAL
ASSOCIATION and: PNC MORTGAGE
Appellee/Respondent

On Appeal from the United States District Court for:the District of Colorado
The Honorable 'Christine M. .Arguello
Case No, 18-cv-01934-CMA.-SKC

HERE COMES NOW, Elet Valentine, Pro Sc, .Appellant/Petitioner submits,
Reconsideration — Court Material Error as Court made a determination concerning
The District Court Order of October 9, 2019, "Order CerOingAppeal as. Frivolous and
Denyig- PlaintffMOiioifor Reconsideration" [ref no. 1068611] (EXHIBIT 1). The Court's
"Order and Ju.degement" of July 14, 2020,. is soley based on a (EXHIBIT 1). The
District Court's October 9, 2019, Order is not contained in Case No. 1466 or Case
No. 19-1007. This document is only contained in Case No. 19-1350. Case No. 191350, was closed. in a December 10, 2019- .and is not under. appeal.

Page 1 of 5

Appellate Case: 19-14

Document: 010110384723 DaL . fled: 07/30/2020 Page: 2

Secondly, the Court states Plaintiff did not respond to the "OrderCertifying
Appeal as _Edwin/is and Degiq

Motion for Reconsideration". -However, Appellant

did respond. The response is located in Case No. 19-1350.
Wherefore, it is the Appellant plea that the court reconsider its position as • the
an order was based on an non-existent document that is not a part of Case No. 191466 or 19-1007 and. not under appeal.
Respectfully Submitted,

Dated this _29

day of July 2020

Signature aiEler ValentineElet Valentine, Pro
3273 S. 'Truckee Way
Bldg 18 .Apt 102
Aurora, CO 8001.3
elet.valentine cz outlook:corn
720-750-2234

Page 2 of 5

Appellate Case: 19-1,,

Document: 010110384723 Dat... tied: 07/30/2020 Page: 3

Certificate of Service

I certify that on July 29, 2020, I flied Reconsideration —Court Material Error with
The United : States •Court of Appeals For The Tenth. Circuit. I sent a copy; along with
any attachments, to the people listed below in accordance with Rule - 5(d)(1):
Sent by (Check One) :_X_ U.S. Mail; In-Person Hand Delivery
Name of Party Served:

Fax Email

Matthew A. Morr,
Registration Number: 35913
Firm: Ballard Spahr, UP
Address: 1225 17th Street, Ste .2300
Denver; CO 80202
Phone Number: 303-292-2400
Fax Number: 303-296-3956
E-Mail Address: morrm@ballardspahr.com
PNC FINANCIAL. SERVICES GROUP, INC.

Original- Filed:
Bryon White United States Courthouse
United States Court of Appeals
1823 Stout Street
Denver, CO 80257
303-844-3157
Signature tg-i.Liet Valentine
Elet Valentine, Pro Sc
3273 S. 'Truckee Way
Bldg 18 Apt 102
Aurora, CO 80013
elet.valentine@outlook.com
720-750-2234

Page 3 of 5

Appellate Case: 19-1L,

Document: 010110384723 Dat- _ tied: 07/30/2020 Page: 4

Certificate of Service
1. certify. that July 29, 2020, I filed Reconsideration - Court .MaterialErrotwith The
United States Court. of Appeals For The Tenth Circuit. sent a. copy, along with
any attachments, to the people listed below in accordance with Rule 50)(1):
Sent by (Check One):_X_

__In-Person' Hand Delivery

Fax • Email

Name of Party Served: Matthew A. Marr,.
Registration Number: 359•13.
Firm: Ballard Spahr, .LI,P
Address: 1225.17th Street, Ste 2300
Denver, CC) 80202
Phone Number: 303-292-2400
Fax Number: 303-296-3956
E-Mail Address: morrm@ballardspahr.com
PNC BANK, National Association :(PNC. Bank, NA.)
Original. Filed:
Bryon White United States Courthouse
United States- Court of Appeals
1823. Stout Street
Denver,'CO 80257
303-844-3157

Signature /s./Elet Valentine
Elet Valentine, Pro Se
3273 S. Truckee Way
Bldg 18 Apt 102
Aurora, CO 80013
elet.vaientine@outlook.com
720-750-2234

Page 4 of 5

Appellate Case: 19-1i,

Document: 010110384723 Dat,_ fled: 07/30/2020 Page: 5

Certificate of 'Service

I certify that on July 29, 2020, I filed Reconsideration — Court Material Error with
The United States Court of Appeals For The Tenth Circuit. I sent a copy, along with
any attachments, to the people listed below in accordance with Rule 5(d)(l):
Sent by (Check One):_X_ U.S. Mail; In-Person Hand Delivery
Name of.Party Served:

Fax Email

Matthew A. Mort,
Registration Number: 35913
Firm: Ballard Spahr, LLP
Address: 1225 17th Street, Ste 2300
Denver, CO 80202
Phone.umber: 303-:29Z-2400
Fax Number: 303-296-3956
E-Mail Address: morrm@ballardspahr.com
PNC MORTGAGE

Original Filed:
Bryon White United States Courthouse
United -States. Court of Appeals
1823 Stout Street
Denver, CO 80257
303-844-3157

,
Signature /
Elet Valentine, Pro Se
3273 S. Truckee Way
Bldg 18. Apt 102
Aurora, CO 80013
elet.valentine a)outlodk.com
720-750-2234

Page 5 of 5

Appellate Case: 19-1k.

Document: 010110384723 DaL... 'led: 07/30/2020 Page: 6

EXHIBIT 1
U.S. COURT OF APPEALS
1.0-1-11 CIRCUIT
"ORDER AND JUDGEMENT"
CASE NO. 19-1466
AND
CASE NO. 18-1007
OCTOBER 10, 2019

Appellate Case: 19-1,,

Document: 010110384723 DaL, . fled: 07/30/2020 Page: 7

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

FILED
United States Court of Appeals
Tenth Circuit
July 14, 2020
Christopher M. Wolpert
Clerk of Court

ELET VALENTINE,
Plaintiff - Appellant,
v.
THE PNC FINANCIAL SERVICES
GROUP; INC.;"PNC BANK, NATIONAL
ASSOCIATION, a/k/a PNC Bank, NA;
PNC MORTGAGE,

Nos. 19-1.007 & 19-1466
(D.C. No. 1:18-CV-01934-CMA-SKC)
(D. Colo.)

Defendants - Appellees.
ORDER. AND JUDGMENT*
Before BRISCOE, MATHESON, and ETD, Circuit Judges.
Elet Valentine, appearing pro se, appeals from the district court's orders
denying her motion for. a. preliminary injunction (No. 19-1007) and dismissing her
action with prejudice as a sanction (No. 19-1466). Exercising. jurisdiction under
28 U.S.C. § 1291, we affirm the order in No, 19-1.46.6. and dismiss No. 19.4007 as
moot.
* After examining the briefs and appellate record, this panel has.determined
unanimously that oral. argument would not materially assist in the determination of
are
these appeals. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The cases
therefore ordered submitted without oral argument. This order and judgment is not
binding precedent, except under the doctrines of law of the-case, res judicata, and
collateral estoppel. It may be cited, however, for its persuasive value consistent with.
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appellate Case: 19-14.

Document: 010110384723 Daf.. fled: 07/30/2020 Page: 8

BACKGROUND.
This case arises from a dispute between Ms. Valentine .and PNC. Financial
Services Group, Inc., PNC Bank, N.A., and PNC Mortgage (collectively "PNC")
concerning her default on a residential mortgage loan and subsequent foreclosure
proceedings. In 2018, a Colorado state court issued an order authorizing the sale of
Ms. Valentine's home. While the foreclosure proceedings were pending,
Ms. Valentine filed suit in the United- States:District Court 'for theDistrict of
Colorado alleging eleven claims for relief, She also

court to, issue a

preliminary injunction to prevent the -sale of her home and require PNC to preserve
documents pending determination of die merits. The court denied the motion, and
Ms. Valentine appealed, which is No. 19-1007 (the "Injunction Appeal").
Following the denial of preliminary injunctive relief, PNC sold the property
and moved to dismiss the:Injunction Appeal as moot. Immediately thereafter,
Ms. Valentine filed an amended notice of appeal in which she attempted to appeal.
from several procedural orders. PNC moved to dismiss the amended notice arguing
that none of the orders were final and therefore could not be appealed.
While the Injunction Appeal was pending, PNC filed a motion to dismiss
Ms. Valentine's amended complaint. The magistrate judge issued a recommendation
to dismiss all claims except Ms. Valentine's breach of contract claim. The magistrate
judge further rejected Ms. Valentine's argument that the pending Injunction Appeal
divested the court of jurisdiction. The district court adopted the recommendation,
noting Ms. Valentine did not challenge the magistrate judge's substantive analysis;
2

Appellate Case: 19-1,

Document: 010110384723 Da. iled: 07/30/2020 Page: 9

. instead, she continued to maintain the pending Injunction Appeal divested th.e court
of jurisdiction.
Shortly thereafter, the magistrate judge set a status conference and - asked PNC
to take the lead in preparing a draft proposed scheduling order. Days later,
Ms. Valentine filed yet another amended notice of appeal in'the Injunction Appeal

in

which she tried to expand the scope of the appeal to include the, district court's order
to dismiss .all but one of Ms. Valentine's claims. This court deemed the amended
notice was a new appeal and assigned it No. 194350 (the "Second Appeal").
In the meantime, Ms. Valentine refused: to follow the magistrate judge's order
to work with PNC to develop a scheduling order. Despite Ms. Valentine's failure

to

participate, PNC timely filed aproposed order and further asked the court to find

the

Second Appeal was frivolous.
On the day set for the status conference, the magistrate judge waited fifteen
minutes after the scheduled start time, but Ms. Valentine failed to appear. He seta
further conference in three weeks and warned Ms. Valentine she must appear or

risk.

dismissal of her suit.
A few days later, the district:court entered an. order certifying the Second
Appeal as frivolous: "Because it is obvious [that an order dismissing:some but not
all of Ms.. Valentine's claims] is notappealable, the Court hereby certifies the
r

[Second Appeal] as frivolous. As a result, this Court. retains jurisdiction to conside
the merits of this case." No. 19'4466, R., Vol. 5.at 11.4 (footnote omitted).

3

Appellate Case: 19-14

Document: 010110384723 DaL 'led: 07/30/2020 Page: 10

Undeterred, Ms. Valentine filed motions to reconsider the magistrate judge's
order setting a further status conference and the court's order certifying the Second
Appeal. as frivolous. The. court denied:both..motions, explaining once again that it
had. jurisdiction, and issuing another Warning to Ms. Valentine to comply with the
court's orders or face dismissal.
When. Ms. Valentine.failed to appear at the second status.conference, the
magistrate, judge entered a. written recom_mendat.ion to dismiss the case with
prejudice. The •district court overruled Ms. Valentine's objections and: adopted and
affirmed the recommendation.. A.s backdrop, the court outlined Ms. Valentine's
failure to comply with the court's orders and"meaningfully engage in the•litigation•
process," along.with her refusal to "accept any interpretation: of the law other than
her own." Id. at 1.96. "The Court has had.enough." id. at 197.
Using the five factors announced in Ehrenhaus v; Reynolds, 965 F.2d 916, 921
(10th Cir: 1.992)—namely "(1) the degree.of actual. prejudice to the defendant; (2) the.
amount of interference with the judicial process; (3) the culpability•of the litigant;
(4) whether the court warned the party in advance that dismissatof the action would
he a likely sanction for noncompliance; and. (5) the efficacy of lesser sanctions"
(internal quotation marks, ellipsis, and. citations: omitted)—the district court
determined dismissal as a.sanction was appropriate.
As to the first factor, the court noted Ms. Valentine's "conduct has•resulted in
substantial prejudice to [PNC]," No. 19-1466, R., Vol. 5 at 199. "[PNC] ha[s]•been
diligent in [its]•attemptill to bring this litigation to. a. close, .but these efforts have been
4

Appellate Case: 19-14L

Document: 010110384723 Date.

07/30/2020 Page: 11

stymied by Ms. Valentine's disregard for hearings and Court Orders." Id. (internal
quotation marks omitted). "In addition to• being •deprived•of any finality in this
matter,. [PNC] ha[s] also expended considerable resources. in what has become a.
futile effort to move this case forward." Id. at 199-200.
Regarding the second factor, the court found Ms. Valentine's "conduct has
stalled the:judicial process." Id. at 200. "[Ms. Valentine's] refusal to comply with.
court orders has inhibited:the. Court's. ability to: perform straightforward tasks." Id..
"Moreover, [her] refusal to recognize this Court's authority to interpret the law has
forced the Court to expend valuabletime in an unnecessary and repetitive- exercise .of
explaining to [her] why her frivolous arguments regarding this Court's jurisdiction
are incorrect." id. "This Court has limited resources and :an. extensive docket.
Accordingly, the consequences that result from [Ms. Valentine's] ongoing
interference with the judicial-system cannot be understated." Id. •
Considering the third factor, the court found Ms. Valentine "is culpable for her
conduct," noting "[e]ven after [she] filed her second Notice of Appeal and stopped
appearing.at proceedings . [the] Magistrate Judge . . and this Court provided [her]
-with multiple detailed explanations :of the legal. principles that refute her position
regarding . jurisdiction." Id. "Nevertheless, .[Ms. Valentine] has remained
obstinate, and her choice to maintain her strategy under the circumstances shows. that
her conduct is intentional." Id.
As to•the fourth: factor, the court found Ms. Valentine "had ample notice. of the.
possibility of dismissal due to her conduct." Id. at .201. And regarding the. final.
5

Appellate Case: 19-14t

Document: 010110384723 Dak

07/30/2020 Page: 12

factor, the court found "[s]anctions less than dismissal with prejudice would not be
effective," noting an award of attorney fees against Ms. Valentine "based on her
frivolous attempt to remove a [separate] case to federal court" was an ineffective
deterrent against her 'insistence on pursuing arguments even after they have .been
demonstrated to be frivolous." Id. The Court also found "that sanctions other than
dismissal with prejudice are unlikely to change what [the] Magistrate Judge . . .
correctly described a.s [Ms. Valentine's] willful ,bad faith-in repeatedly disregarding
the Court's rules and orders." Id. (internal quotation marks omitted).
Ms. Valentine filed a. notice of appeal from the district court's entry of a final.
judgment dismissing the case as a. sanction, which is No. 19-1466 (the "Sanction
Appeal"). Shortly thereafter, this Courtdisnii.ssed the Second Appeal for lack of
jurisdiction.
SANCTION APPEAL

"The Federal Rules of Civil Procedure authorize sanctions, including
dismissal, for failing to appear at a pretrial- or scheduling conference . . and for
failing to comply with court rules or any order of the court." Gripe v. City of Enid,
312 F.3d 1184, 11- 88 (10th Ci.r. 2002)... "We review for an abuse of discretion the
district court's decision to impose the sanction of dismissal for failure to follow court
orders and rules." Id. "It.is within a court's discretion to dismiss a. case if, after
considering all the relevant factors, it concludes that dismissal alone would satisfy
the interests of justice." Ehrenhaus, 965-F.2d at 918. The district court considered

6

Appellate Case: 19-141

Document: 010110384723 Daft. Jd: 07/30/2020 Page: 13

the relevant factors in deciding to•dismiss Ms. Valentine's case, and its decision was
not an abuse of discretion.
But Ms. Valentine does not challenge the merits of the district court's sanction
order; instead, she maintains the court lacked jurisdiction to enter any orders upon
the filing of her Injunction Appeal and Second Appeal, including the sanction order.
Ms. Valentine is mistaken.
An appeal from an interlocutory order denying a. preliminary injunction does
not divest the district court of jurisdiction to proceed with the underlying action on
the merits. See Colorado v. Idarado Mining Co., 916 F.2d 1486, 1490 & n.2
(10th Cir. 1990). Likewise, "so long as the district court takes the affirmative step of
certifying an appeal as frivolous or forfeited, it retains jurisdiction." McCauley v.
Halliburton Energy Servs., inc., 413 F.3d 1158, 1.162 (10th Cir. 2005). Because the
court certified. Ms. Valentine's Second Appeal as frivolous, it retained jurisdiction.
Last, Ms. Valentine incorporates by reference her arguments in a proposed
supplement to her opening brief in the Injunction Appeal concerning eight alleged
procedural errors committed by the district court. Whether to accept the proposed
supplement was referred to this panel. We grant Ms. Valentine's motion to file the
proposed supplement but deny the arguments in view of our ruling on the dispositive
issue—the district court did not abuse its discretion in dismissing Ms. Valentine's
case as a. sanction for her failure to comply with the court's orders. The issues in the
supplement, which include whether PNC's motion to dismiss was timely filed and
whether the court properly denied Ms. Valentine's motion to file a second amended
7

Appellate Case: 19-14k.

Document: 010110384723 Date :3c1: 07/30/2020 Page: 14

complaint, do not "affect the outcome[,j" and therefore, "[w]e will not undertake to
decide [them]" Griffin v. Davies, 929 F.2d 550, 554 (10th Cir. 1.991).
INJUNCTION APPEAL

Ms. Valentine's appeal from th.e denial of the preliminary injunction is mooted
by the fact that the district court proceeded to adjudicate the underlying action on the
merits. When a. court proceeds to adjudicate the merits of the underlying action and
enters a final judgment, an appeal from the denial of a preliminary injunction is moot
because a preliminary injunction is by its nature.a temporary measure intended to
furnish provisional protection while awaiting a. final judgment on the merits. See
United States ex rel. Bergen v. Lawrence, 848 F.2d 1502, 1.512 (10th Cir. 1988).
CONCLUSION

We affirm. the district's court's order in No. 19-1466. We deny
Ms. Valentine's motion to reconsider this court's order denying her motion to
consolidate.
We dismiss No. 19-1007 as moot. We grant Ms. Valentine's motions to file a
supplement to her opening. brief and to extend the time for filing that supplement, .and
we direct the Clerk to file the supplement as of the date it was received. We deny
Ms. Valentine's motions to: (1) reconsider this court's order to supplement the
record; (2) preserve the recoild; (3) oppose PNC's entry of appearance; and

8

Appellate Case: 19-14

Document: 010110384723 Dat. ,ed: 07/30/2020 Page: 15

(4):reconsider this court's order denying her motion. to consolidate. We deny PVC's
motions to dismiss the. appeal and amended notice of appeal .as moot.
Entered for-the Court

Lid
Circuit Judge

9

Appellate Case: 19-1,.

Document: 010110384723 Oat_ iled: 07/30/2020 Page: 16

EXHIBIT 2
U.S. DISTRICT COURT ORDER
"ORDER CERTIFYING APPEAL
AS FRIVOLOUS AND DENYING
PLAINTIFF'S MOTION FOR
RECONSIDERATION"
CASE NO. 19-1350
OCTOBER 10, 2019
[REF#10688611]

Apit414144:tc@w§W., .-sRacuudip4,411PIME1414a3mici4C, agbONCtlatRO

p*graZ

Appellate Case: 19-1350 Document: 010110243012 Date Filed: 10/10/2019 Page: 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Christine M. Arguello
Civil Action No. 18-cv-01934-CMA-SKC
ELET VALENTINE,
Plaintiff,
v.
THE PNC FINANCIAL SERVICES GROUP, INC.,
PNC BANK, NATIONAL ASSOCIATION, a/k/a PNC Bank, NA, and
PNC MORTGAGE,
Defendants.

ORDER CERTIFYING APPEAL AS FRIVOLOUS AND DENYING
PLAINTIFF'S MOTION FOR RECONSIDERATION

This matter is before the Court on Plaintiff Elet Valentine's Second Amended
Notice of Appeal (Doc. # 97) and Motion for Reconsideration (Doc. # 96) of this Court's
Order Adopting and Affirming August 1, 2019 Recommendation of United States
Magistrate Judge (Doc. # 94). Based on the reasons that follow, the Court certifies
Plaintiff's latest appeal as frivolous and denies Plaintiff's Motion for Reconsideration.
I.

BACKGROUND

The Court recently recounted the facts of this case in its Order adopting
Magistrate Judge Crews' Recommendation. See (Id.). Accordingly, the Court will
reiterate the factual background only to the extent necessary to address Plaintiff's
Motion.

ARROaig.FAMIA.44,

..gikwurfttniAlfiliM814irelkohank -ifsiDt7639049 Plitjwol%

Appellate Case: 19-1350 Document: - 010110243012

Date Filed: 10/10/2019 Page: 2

On August 2, 2018, Plaintiff, acting pro se, filed a Motion for an Ex Parte
Temporary Restraining Order or Preliminary Injunction which sought to enjoin
Defendants' foreclosure on her home and to preserve evidence. See generally (Doc. #
6). This Court denied Plaintiff's Motion, and Plaintiff appealed that decision. (Doc. ## 71,
73.)
Subsequently, Magistrate Judge Crews issued a Recommendation in which he
concluded, inter alio, that this Court should grant in part and deny in part Defendants
PNC Financial Services Group, Inc., PNC Bank, N.A., and PNC Mortgage's
("Defendants") Motion to Dismiss Plaintiff's Amended Complaint. (Doc. # 92 at 28-29.)
On August 30, 2019, this Court affirmed the Recommendation after conducting a de
novo review of. Plaintiff's objections. (Doc. # 94.) Thus, the Court denied the Motion to
Dismiss as to Plaintiff's breach of contract claim which is based on the theory that
Defendants failed to properly apply and credit her loan payments. However, the Court
granted the Motion to Dismiss as to as to the remaining claims in Plaintiff's Amended
Complaint. (Id. at 6.)
On September 10, 2019, Plaintiff filed a document titled Second Amended Notice
of Appeal (Doc. # 97) regarding this Court's August 30 Order. Additionally, on
September 12, 2019, Plaintiff filed a Motion for Reconsideration of the same Order.
(Doc. # 96.)
II.

DISCUSSION.

Before proceeding to the merits of Plaintiff's Motion for Reconsideration, the
Court must consider its jurisdiction because Plaintiff has filed multiple notices of appeal

2

AolOalfzig@§foilk441•.. .-srAccumsiali41-91Meolfrah0i

AsbniOlaia piiime:01%

Appellate Case: 19-1350 Document: 010110243012 Date Filed: 10/10/2019 Page: 3

in this case. See Amazon, Inc. v. Dirt Camp, Inc., 273 F.3d 1271, 1276 (10th Cir. 2001)
("A federal court has an independent obligation to examine its own jurisdiction.").
A.

THIS COURT RETAINS JURISDICTION
/Applicable Law
"The filing of a notice of appeal is an event of jurisdictional significance—it

confers jurisdiction on the court of appeals and divests the district court of its control
over those aspects of the case involved in the appeal." Griggs v. Provident Consumer
Discount Co., 459 U.S. 56, 58 (1982). However, the Tenth Circuit has held that:
Because this divestiture of jurisdiction is subject to abuse and can
unreasonably delay trial, we recognized in Stewart v. Donges, 915 F.2d
572 (10th Cir. 1991) a procedure by which a district court may maintain
jurisdiction [in] a [case] if the court certifies that [an] appeal is frivolous.
Langley v. Adams Cnty., Co/o., 987 F.2d 1473, 1477 (10th Cir. 1993). Specifically, "to
regain jurisdiction, [a district court] must take the affirmative step of certifying the appeal
as frivolous or forfeited .

." Stewart, 915 F.2d at 577. An appeal is frivolous if "the

result is obvious or . . . the appellant's arguments are wholly without merit." Barnes v.
Sec. Life of Denver Ins. Co., No. 18-cv-718-WJM-SKC, 2019 WL 142113, at *2 (D.
Colo. Jan. 9, 2019) (citation omitted).
Analysis
Plaintiff's Second Amended Notice of Appeal is frivolous. It is well established
that "federal circuit courts have jurisdiction to review only 'final decisions' of district
courts." Spring Creek ExpL & Prod. Co., LLC v. Hess Bakken Inv., U, LLC, 887 F.3d
1003, 1015 (10th Cir. 2018) (citation omitted); 28 U.S.C. § 1291. A "final decision must
dispose of all claims by all parties, except a decision may otherwise be considered final
3

44 .,§ozputmliTiMiltNEILINfhoitTvk ,itsbaNSKORO pitstgiron
Appellate Case: 19-1350 Document: 010110243012 Date Filed: 10/10/2019 Page: 4

if it is properly certified as a final judgment under Federal Rule of Civil Procedure 54(b)."
New Mexico v. Trujillo, 813 F.3d 1308, 1316 (10th Cir. 2016).
In the instant case, this Court's Order Adopting and Affirming August 1, 2019
Recommendation of Untied States Magistrate Judge did not dispose of all of Plaintiffs
claims. See (Doc. # 94 at 6). Therefore, the Order is not a final decision for purposes of
28 U.S.C. § 1291. Moreover, the Court has not certified the Order as a final judgment
pursuant to Federal Rule of Civil Procedure 54. Accordingly, the Order is not
appealable.
Because it is obvious from a review of the docket that this Court's Order is not
appealable, the Court hereby certifies Plaintiff's Second Amended Notice of Appeal
(Doc. # 97) as frivolous.1 As a result, this Court retains jurisdiction to consider the merits
of this case. Stewart, 915 F.2d at 577.
B.

PLAINTIFF'S MOTION FOR RECONSIDERATION
Plaintiff's Motion for Reconsideration is lacking in merit. The Motion asserts the

same arguments that Plaintiff raised in her Objection (Doc. # 93) to Magistrate Judge
Crews' Recommendation. The Court addressed those arguments in its Order adopting
the Recommendation. See (Doc. # 94 at 4-5). Moreover, "[aj motion for reconsideration
is not appropriate to revisit issues already addressed or advance arguments that could

i To the extent that Plaintiff asserts that her initial appeal of this Court's denial of her motion for
preliminary injunctive relief divested this Court of jurisdiction, the Court reiterates that "[ajlthough
the filing of a notice of appeal ordinarily divests the district court of jurisdiction, in an appeal from
an order granting or denying a preliminary injunction, a district court may nevertheless proceed
to determine the action on the merits." (Doc. # 94 at 5) (quoting (Doc. # 92 at 3 n.1) (Magistrate
Judge Crews' Recommendation) (quoting Free Speech v. Fed. Election Comm'n, 720 F.3d 788,
791 (10th Cir. 2013))).
4

ApEtOep_ga6o1'044. dikwumatralirliMeArelihotiztiott, Asba7 i 0 plititge:at
Appellate Case: 19-1350 Document: 010110243012 Date Flied: 10/10/2019 Page: 5

have been raised in prior briefing." Gebremedhin v. Am. Family Mut. ins. Co., No. 13-cv02813-CMA-BNB, 2016 WI_ 7868815, at *1 (D. Colo. Feb. 5, 2016).
III.

CONCLUSION

Based on the foregoing, the Court FINDS that Plaintiff's Second Amended Notice
of Appeal (Doc. # 97) is frivolous. Consequently, this Court retains jurisdiction in this
case. Additionally, the Court ORDERS that Plaintiff's Motion for Reconsideration (Doc. #
96) is DENIED.

DATED: October 9, 2019
BY THE COURT:

si\
Yir
a
iC4V

CHRISTINE M. RG LLO.
United States District Judge

5

APPENDIX I

CASE NO.: 18-cv-01934-CMA-SKC

IN THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

ELET VALENTINE
Plaintiff-Appellant
v.
PNC FINANCIAL SERVICES GROUP, INC.; PNC BANK, NATIONAL
ASSOCIATION (AKA PNC BANK, N.A.); AND PNC MORTGAGE
Defendants-Appellees

JANUARY 7, 2019

ORDER AFFIRMING MAGISTRATE JUDGE KATO CREWS' ORDER
DENYING PLAINTIFF'S MOTION TO CORRECT RECORD, MOTION TO
FILE A SECOND AMENDED COMPLAINT, MOTION FOR EXTENTION OF
TIME TO FILE AN AMENDED COMPLAINT, AND MOTION OF TIME TO
FILE RESPONSE TO MOTION TO DISMIS

BEFORE: JUDGE CHRISTINE M. ARGUELLO

Appendix I

Case 1:18-cv-01"4-CMA-SKC Document 77 Filed r" n7/19 Page 1 of 5
Appellate Case: 19-1012, Jocument: 010110288839 Date,

01/1E12020 Page: 387

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Christine M. Arguello

Civil Action No. 18-cv-01934-CMA-SKC
ELET VALENTINE,
Plaintiff,
v.
THE PNC FINANCIAL SERVICES GROUP, INC.,
PNC BANK, NATIONAL ASSOCIATION, a/k/a PNC Bank, NA, and
PNC MORTGAGE,
Defendants.

ORDER AFFIRMING MAGISTRATE JUDGE S. KATO CREWS' ORDER DENYING
PLAINTIFF'S MOTION TO CORRECT RECORD, MOTION TO FILE A SECOND
AMENDED COMPLAINT, MOTION FOR EXTENSION OF TIME TO FILE AN
AMENDED COMPLAINT, AND MOTION FOR EXTENSION OF TIME TO FILE
RESPONSE TO MOTION TO DISMISS

This matter is before the Court on Plaintiff Elet Valentine's Objections (Doc. ##
56, 57) to an Order issued by Magistrate Judge S. Kato Crews (Doc. # 53), wherein he
denied Plaintiffs (1) motion to correct the Court's records; (2) motion to file a second
amended complaint (3) motion for an extension of time to file a second amended
complaint; and (4) motion for an extension of time to respond to the pending motion to
dismiss (Doc. ## 47-50). For the reasons that follow, this Court overrules Plaintiffs
Objections and affirms Magistrate Judge Crews' Order. The Order is incorporated
herein by reference. See 28 U.S.C. § 636(b)(1)(A); Federal Rule of Civil Procedure
72(a).

387

Case 1:18-cv-01'—'4-CMA-SKC Document 77 Filed r" '97/19 Page 2 of 5
Appellate Case: 19-1486. Document: 0101102888Z9 Date

01/14/2029 Page: 388

I. BACKGROUND
On October 11, 2018, Plaintiff filed four motions—seeking various extensions of
time, seeking to correct the Court record, and seeking to amend her complaint—which
are presently at issue. On October 15, 2018, this Court referred the motions to
Magistrate Judge Crews. (Doc. # 51.) Magistrate Judge Crews entered an Order on the
same day denying Plaintiffs motions. Subsequently, on October 29, 2018, Plaintiff filed
two documents respectively titled Objectionto [sic] Minuite [sic] Order Doc 55 — Denial
Request to Amend and Denial Extention [sic] of Time (Doc. # 56) and Objectionto [sic]
Minuite [sic] Order Doc 53 — Correct Court Record (Doc. # 57). Although (Doc. # 56)
indicates that it is objecting to Doc. # 55, the Court assumes Plaintiff intended to object
to Doc. # 53 based on the substance of that document.
II. STANDARD OF REVIEW
When a magistrate judge issues a non-dispositive pretrial order, "[a] party may
serve and file objections to the order to the district court within 14 days after being
served with a copy." Fed. R. Civ. Pro. 72(a). The district court must modify or set aside
any part of the order that "is clearly erroneous or is contrary to law." Fed. R. Civ. Pro.
72(a); 28 U.S.C. § 636(b)(a)(A); First Union Mortg. Corp. v. Smith, 229 F.3d 992, 995
(10th Cir. 2000).
With regard to legal matters, the district court conducts an independent, plenary
review of the magistrate judge's order. In re Motor Fuel Temperature Sales Practice
Litig., 707 F. Supp. 2d 1145, 1148 (D. Kan. 2010); see also 12 Charles Alan Wright, et
al., Federal Practice & Procedure § 3069 (2d ed. 2017). Under the 'contrary to law'

2
388

Case 1:18-cv-01"4-CMA-SKC Document 77 Filed r" '17/19 Page 3 of 5
Appellate Case: 19-108k, Document; 010110288E39 Date,

01/14/2029 Page: 389

standard, the reviewing court "set[s] aside the magistrate order only if it applied an
incorrect standard," Dias v. City & Cty. of Denver, No. 07-cv-00722-WDM-MJW, 2007
WL 4373229, *2 (D. Colo. Dec. 7, 2007) (internal quotations omitted), or applied the
appropriate legal standard incorrectly, Kissing Camels Surgery Ctr., LLC v. Centura
Health Corp., No. 12-cv-3012-WJM-BNB, 2014 WL 5599127, *1 (D. Colo. Nov. 4,
2014).
As to factual findings by the magistrate judge, the 'clearly erroneous' standard
"requires that the reviewing court affirm unless it 'on the entire evidence is left with the
definite and firm conviction that a mistake has been committed." Ocelot Oil Corp. v.
Sparrow Indus., 847 F.2d 1458, 1464 (10th Cir. 1988) (quoting United States v. U.S.
Gypsum Co., 333 U.S. 364, 395 (1948)). This is a deferential standard. In re Motor Fuel
Temperature Sales Practice Litig., 707 F. Supp. 2d at 1147.
III. ANALYSIS
Magistrate Judge Crews' Order is neither clearly erroneous nor contrary to law.
Plaintiff appears to argue that Magistrate Judge Crews erred in denying Plaintiffs
motion to amend her complaint on the basis of Plaintiffs failure to comply with Colorado
Local Rule of Civil Procedure 15.1. Under Rule 15.1(b) a "party who files an opposed
motion for leave to amend or supplement a pleading shall attach as an exhibit a copy of
the proposed amended or supplemental pleading. . . ." Magistrate Judge Crews denied
Plaintiff's motion to amend her complaint (Doc. # 49) and her motion for an extension of
time to file a second amended complaint (Doc. # 48) because "Plaintiff has not attached
the proposed second amended complaint." (Doc. # 53 at 1.)

3
389

Case 1:18-cv-01"4-CMA-SKC Document 77 Filed r" '97/19 Page 4 of 5
Appellate Case: 19-1ox

Document: 0101102881339 Date

01/14/2020 Page: 390

In her Objection, Plaintiff asserts that the "2"d Amended Complaint would not be
attached until it was composed, which it has not." (Doc. # 56 at 1.) However, the fact
that Plaintiff had not yet composed her amended complaint when she filed her
corresponding motion is not a justification for her failure to comply with Local Rule
15.1(b). Therefore, Magistrate Judge Crews did not err in denying Plaintiffs motion to
amend her complaint (Doc. # 49) and denying as moot her motion seeking an extension
of time to file a second amended complaint (Doc. # 48).1
Plaintiffs contention that the Magistrate Judge erred in his application of Federal
Rule of Civil Procedure 15 because the Magistrate Judge did not cite Rule 15 in its
entirety is lacking in merit. There is no evidence that the Magistrate Judge failed to
correctly apply Rule 15. Moreover, Magistrate Judge Crews denied Plaintiffs motion to
amend her complaint without prejudice, which means that Plaintiff could have refiled her
motion and made the corrections necessary to comply with the Federal and Local rules
of civil procedure.
Finally, Plaintiff objects to the Magistrate Judge's denial of her motion to correct
the record. However, Magistrate Judge Crews did not err in finding that the designation
of Plaintiffs case as a Civil Rights matter has "no bearing on the outcome of the case."
(Doc. # 53 at 1.) Therefore, there is a substantial justification for denying Plaintiffs
motion.

I The Court notes that the instant order has no bearing on Plaintiffs pending motion seeking to
file a Second Amended Complaint (Doc. # 67), which this Court referred to Magistrate Judge
Crews on December 14, 2018 (Doc. # 69).
4
390

Case 1:18-cv-01-14-CMA-SKC Document 77 Filed r" ")7/19 Page 5 of 5
Appellate Case: 19-14812 Document: 010110288E39 Date —id: 01/14/2020 Page: 391

Thus, having reviewed the relevant pleadings and applicable law, the Court finds
that Magistrate Judge Crews did not err in denying Plaintiffs motions for the reasons set
forth in (Doc. # 53). His Order denying those motions is not, therefore, clearly erroneous
or contrary to law.
IV.

CONCLUSION

For the foregoing reasons, the Court AFFIRMS Magistrate Judge Crews' Order
(Doc. # 53) and OVERRULES Plaintiffs Objections (Doc. ## 56, 57).
DATED: January 7, 2019

BY THE COURT:

1\1\ atJ) LC)CP

CHRISTINE M. ARG LLO
United States District Judge

391

APPENDIX J
CASE NO.: 19-1466

IN THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

ELET VALENTINE
Plaintiff-Appellant
v.
PNC FINANCIAL SERVICES GROUP, INC.; PNC BANK, NATIONAL
ASSOCIATION (AKA PNC BANK, N.A.); AND PNC MORTGAGE
Defendants-Appellees

JANUARY 7, 2019

ORDER ADOPTING AND AFFIRMING SEPTEMBER 28, 2018
RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE

BEFORE: CHRISTINE M. ARGUELLO

Appendix J

Case 1:18-cv-01"4-CMA-SKC Document 71 Filed e" '97/19 Page 1 of 9
Appellate Case: 19-10012, Document: 010110280839 Dates

01/10/2029 Page: 374

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Christine M. Arguello

Civil Action No. 18-cv-01934-CMA-SKC
ELET VALENTINE,
Plaintiff,
v.
THE PNC FINANCIAL SERVICES GROUP, INC.,
PNC BANK, NATIONAL ASSOCIATION, a/k/a PNC Bank, NA, and
PNC MORTGAGE,
Defendants.

ORDER ADOPTING AND AFFIRMING SEPTEMBER 28, 2018
RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE

This matter is before the Court on the September 28, 2018 Recommendation
(Doc. # 42) by United States Magistrate Judge S. Kato Crews that Plaintiffs Motion for
an Ex Parte Temporary Restraining Order and Preliminary Injunction (Doc. # 6) be
denied. Plaintiff timely filed an Objection to the Recommendation. (Doc. # 46.)
Subsequently, Defendants PNC Financial Services Group, Inc., PNC Bank, N.A., and
PNC Mortgage, a division of PNC Bank, N.A. ("Defendants") filed a Response (Doc. #
54) and Plaintiff filed a Surreply (Doc. # 61). For the reasons that follow, the Court
affirms and adopts the Recommendation.

374

Case 1:18-cv-031"4-CMA-SKC Document 71 Filed 041n7/19 Page 2 of 9
Appellate Case: 19-108ta document: 010110288859 Date t

I.

01/14/2029 Page: 375

BACKGROUND

The Magistrate Judge's Recommendation provides an extensive recitation of the
factual and procedural background of this case. The Recommendation is incorporated
herein by reference. See 28 U.S.C. § 636(b)(1)(B); Fed. R. Civ. P. 72(b). Accordingly,
the Court will reiterate the factual background only to the extent necessary to address
Plaintiffs objections.
This case arises out of a dispute between Plaintiff Elet Valentine and Defendants
regarding a loan transaction secured by real property located in Denver, Colorado, and
the subsequent foreclosure on the property.
On August 2, 2018, Plaintiff, acting pro se, filed a Motion for an Ex Parte
Temporary Restraining Order or Preliminary injunction which sought to enjoin
Defendants' foreclosure on her home despite the fact that a Colorado state court
determined that Defendants were justified in proceeding with a foreclosure sale of the
property. See (Doc. # 6 at 3; Doc. # 26 at 1). Plaintiff supplemented the Motion on
August 16, 2018, by filing a document titled Plaintiffs Brief in Support of a Motion for Ex
Parte Temporary Restraining Order or Preliminary Injunction. (Doc. # 25.) Defendants
filed a Response to Plaintiffs Motion on August 17, 2018. (Doc. # 29.)
On September 28, 2018, Magistrate Judge Crews issued a Recommendation
that Plaintiffs Motion should be denied. (Doc. # 42.) Specifically, the Recommendation
determined that Plaintiff has very little, if any, likelihood of prevailing on the merits of her
claims. (Id. at 7.) Additionally, the Recommendation concluded that Plaintiff failed to

2
375

Case 1:18-cv-01"^4-CMA-SKC Document 71 Filed r- n7/19 Page 3 of 9
Appellate Case: 19-106b Document: 01011028883

Date t

01/14/2029 Page: 376

show that she will suffer irreparable harm without an injunction to prevent the
foreclosure sale.' (Id. at 11.)
On October 11, 2018, Plaintiff filed an Objection to the Recommendation. (Doc. #
46.) Plaintiff effectively objects to the Recommendation in its entirety. With respect to
the Recommendation's conclusion that Plaintiff will not suffer irreparable harm in the
absence of an injunction, Plaintiff asserts that her Motion and related filings actually
establish that she met her burden with regard to irreparable harm. See (id. at 28).
Subsequently, Defendants proceeded with the foreclosure sale based on the
state court's determination that Defendants are the real party in interest, that there is a
reasonable probability of a default under the Note and Deed of Trust sufficient for
Defendants to proceed with the foreclosure, and that Plaintiff did not raise any valid
defenses that would prevent the foreclosure. (Doc. # 54 at 2; Doc. # 70 at 2.) The sale
took place on November 29, 2018. (Doc. # 70 at 2.) The state court entered an Order
Approving Sale on December 21, 2018. (Doc. # 70-1 at 1-2.)
II.

STANDARD OF REVIEW

After a magistrate judge issues a recommendation on a motion seeking injunctive
relief, 28 U.S.C. § 636(b)(1) requires that the district judge conduct a de novo review of
any part of the Recommendation to which a proper objection has been made. An

The Court notes that the Recommendation focuses primarily on why Plaintiff is unlikely to
prevail on the merits of her claims. However, because the Court agrees with Magistrate Judge
Crews' conclusion that Plaintiff has failed to show irreparable harm, the Court need not reach
the issue of whether Plaintiff is likely to prevail on the merits of her claims. N.M. Dep't of Game
and Fish v. U.S. Dep't of the Interior, 854 F.3d 1236, 1249 (10th Cir. 2017) (noting that if a
movant fails to "meet its burden of showing a significant risk of irreparable injury, [courts] need
not address the remaining preliminary injunction factors.").
3
376

Case 1:18-cv-01"4-CMA-SKC Document 71 Filed P' 7/19 Page 4 of 9
Appellate Case: 19-1084, Jocument: 010110288839 Date' .—d: 01/14/2029 Page: 377

objection is properly made if it is both timely and specific. U.S. v. One Parcel of Real
Property Known As 2121 East 30th Street, 73 F.3d 1057, 1059 (10th Cir.1996). In
conducting the review, a "district judge may accept, reject, or modify the recommended
disposition; receive further evidence; or return the matter to the magistrate judge with
instructions." Fed. R. Civ. P. 72(b)(3). Any arguments raised for the first time in
objections are deemed waived and need not be considered by the district court.
Marshall v. Chater, 75 F.3d 1421, 1426 (10th Cir. 1996).
When a party proceeds pro se, as Plaintiff does here, the Court "review[s] his
pleadings and other papers liberally and hold[s] them to a less stringent standard than
those drafted by attorneys." Trackwell v. United States, 472 F.3d 1242, 1243 (10th Cir.
2007) (citations omitted); see also Haines v. Kerner, 404 U.S. 519, 520-21 (1972).
However, it is not "the proper function of the district court to assume the role of
advocate for the pro se litigant." Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991).
Additionally, a pro se litigant is still bound by the rules of federal and appellate
procedure. Abdelsamed v. United States, 13 F. App' x. 883, 884 (10th Cir. 2001).
III.

ANALYSIS

Injunctive relief is an extraordinary remedy that should be granted only when the
moving party clearly and unequivocally demonstrates its necessity. See Schrier v. Univ.
of Colo., 427 F.3d 1253, 1258 (10th Cir. 2005). A party seeking a preliminary injunction
or temporary restraining order must show (1) the movant is substantially likely to
succeed on the merits; (2) the movant will suffer irreparable injury if the injunction is
denied; (3) the movant's threatened injury outweighs the injury the opposing party will

4
377

Case 1:18-cv-03"`M-CMA-SKC Document 71 Filed ea "17/19 Page 5 of 9
Appellate Case: 19-188b Jocument: 010110288E39 Date .._J: 01/14/2029 Page: 378

suffer under the injunction; and (4) the injunction would not be adverse to the public
interest. Fish v. Kobach, 840 F.3d 710, 723 (10th Cir. 2016); Kaplan v. Bank of N.Y.
Mellon Trust Co., No. 10-cv-02802-PAB, 2010 WL 4775725, at *1 (D. Colo. 2010) (citing
Lundgrin v. Claytor, 619 F.2d 61, 63 (10th Cir. 1980)) (noting that the four elements
apply to both preliminary injunctions and temporary restraining orders and that "the
same considerations apply" to both forms of injunctive relief).
It is well established that "a showing of probable irreparable harm is the single
most important prerequisite for the issuance of a preliminary injunction." Dominion
Video Satellite, Inc. v. Echostar Satellite Corp., 356 F.3d 1256, 1260 (10th Cir. 2004).
Therefore, "the moving party must first demonstrate that such injury is likely before the
other requirements for the issuance of an injunction will be considered" Id. (quoting
Reuters Ltd. v. United Press

Inc., 903 F.2d 904, 907 (2d Cir. 1990)). Accordingly, if

the movant fails to meet its burden of establishing irreparable injury, courts "need not
address the remaining preliminary injunction factors." N.M. Dep't of Game and Fish v.
U.S. Dep't of the Interior, 854 F.3d 1236, 1249 (10th Cir. 2017) (citing People for the
Ethical Treatment of Prop. Owners v. U.S. Fish and Wildlife Serv., 852 F.3d 990, 1008
(10th Cir. 2017) ("If it is not necessary to decide more, it is necessary not to decide
more.")); see also Corny v. Estate of Barker, No. 14-cv-02672-CMA-KLM, 2017 WL
5952709, at *1 (D. Colo. 2017) (same).
In the instant case, Plaintiff has failed to establish a likelihood of irreparable
harm, i.e., a significant risk that she will experience harm that cannot be compensated
after the fact by money damages. N.M. Dep't of Game and Fish, 854 F.3d at 1250

5
378

Case 1:18-cv-01 ^`'4-CMA-SKC Document 71 Filed r" "7/19 Page 6 of 9
Appellate Case: 19-148k, Jocument: 010110288839 Date I

01/14/2029 Page: 379

(quoting Fish, 840 F.3d at 751-52). Purely economic loss "is usually insufficient to
constitute irreparable harm" because economic losses can readily be compensated with
monetary damages. Crowe & Dunlevy, P.C. v. Stidham, 640 F.3d 1140, 1158 (10th Cir.
2011). Additionally, the party seeking injunctive relief must show that the harm is certain
as opposed to theoretical, great, and "of such imminence that there is clear and present
need for equitable relief." Schrier v. Univ. of Co/o., 427 F.3d at 1267 (emphasis added);
Heideman v. S. Salt Lake City, 348 F.3d 1182, 1190 (10th Cir. 2003).
Plaintiffs alleged harm is compensable by money damages. Courts have held
that the "foreclosure of a property translates to economic loss. . . ." Tatten v. City and
Cty. of Denver, No. 16-cv-01603-GPG, 2016 WL 10518586, at *2 (D. Colo. 2016); see,
e.g., May v. U.S. Bank, N.A., No. 13-cv-01621-PAB-MJW, 2013 WL 4462033, at *9 (D.
Colo. 2013) (noting that any claimed injury due to foreclosure sale "is not irreparable
and may be compensated in money damages, even after a foreclosure sale"); Moore v.
One W/Indy Mac Bank, No. 10-cv-01455-REB-CBS, 2010 WL 3398855, at *7 (D. Colo.
2010) (noting plaintiff did not demonstrate irreparable injury because plaintiff "retains a
right to redeem following a foreclosure sale and any subsequent harm in losing her
property may be compensated by money damages"). Additionally, emotional damages
related to the foreclosure of a home are also compensable with monetary damages.
See Strand v. Am.'s Servicing Co., No. 2:11-cv-2 TS, 2011 WL 108902, at *1 (D. Utah
2011).
The harm Plaintiff alleges she will face absent injunctive relief is as follows:
"irreparable harm, substantial further emotional injury, embarrassment, inconvenience,

6
379

Case 1:18-cv-01"4-CMA-SKC Document 71 Filed r" tr17/19 Page 7 of 9
Appellate Case: 19-1581, Jocument: 010110288839 Date i ..-d: 01/15/2029 Page: 380

and unjustly displaced [sicj, lose remaining home equity, further financial hardship, and
cause an unjust enrichment." (Doc. # 6 at 4; Doc. # 35 at 35-36.) Such injuries are
readily compensable with monetary damages. See Tatten, 2016 WL 10518586, at *2;
Strand, 2011 WL 108902, at *1. In fact, Plaintiffs Amended Complaint explicitly seeks
compensatory damages for "future pecuniary and non-pecuniary losses, stress,
emotional pain, suffering, inconvenience, mental anguish, loss of enjoyment of life,
financial hardship, and other nonpecuniary losses." (Doc. # 36 at 68.) Notably, the
injuries which Plaintiff argues are irreparable are effectively the same injuries for which
Plaintiff is seeking compensatory damages. As the Supreme Court has recognized, "the
possibility that adequate compensatory or other corrective relief will be available at a
later date . . . weighs heavily against a claim of irreparable harm." Sampson v. Murray,
415 U.S. 61, 90 (1970).
Moreover, Plaintiffs alleged harm is not imminent. The "purpose of a preliminary
injunction is not to remedy past harm but to protect plaintiffs from irreparable injury that
will surely result without their issuance." Schrier, 427 F.3d at 1267 (citing Heideman,
348 F.3d at 1189 (noting that a preliminary injunction will not issue without a showing of
"a clear and present need for equitable relief to prevent irreparable harm") (emphasis
added)). In the instant case, the foreclosure sale took place on November 29, 2018.
(Doc. # 70 at 2.) The sale was subsequently approved by a Colorado state court on
December 21, 2018. (Doc. # 70-1 at 1-2.) Therefore, because the sale has already
taken place, Plaintiffs alleged harm is not imminent.

7
380

Case 1:18-cv-01"*14-CMA-SKC Document 71 Filed r" "7/19 Page 8 of 9
Appellate Case: 19-1086, Jocument: 010110288839 Date I ..-d: 01/15/2029 Page: 381

Alternatively, Plaintiff appears to argue that she will suffer irreparable harm if
Defendants are not compelled to comply with the Federal Rules of Civil Procedure by
preserving relevant evidence. Specifically, Plaintiff asserts that if "material evidence to
this litigation is removed, destroyed, altered would [sic] prejudice [her] case and cause
immediate and irreparable injury." (Doc. # 25 at 19.) However, there is no evidence that
immediate judicial action is necessary to prevent Defendants from losing or destroying
evidence. At present, it is sufficient to note that the parties are under an ongoing
obligation to preserve documents that may be relevant to the instant case and that the
Court has "inherent power to impose sanctions for the destruction or loss of evidence."
Cache La Poudre Feeds, LLC v. Land O'Lakes, Inc., 244 F.R.D. 614, 620 (D. Colo.
2007). The abstract risk that a litigant might fail to comply with the Federal Rules of Civil
Procedure, without more, is insufficient to justify judicial action.
In sum, Plaintiff has not demonstrated that she will suffer irreparable harm absent
injunctive relief. The alleged injuries Plaintiff cites are compensable with monetary
damages. Moreover, Plaintiffs alleged injuries are not imminent because the
foreclosure sale of her home has already taken place. Accordingly, because Plaintiff
failed to meet her burden of establishing irreparable injury, injunctive relief is not
warranted and the Court "need not address the remaining preliminary injunction
factors." N.M. Dep't of Game and Fish, 854 F.3d at 1249.

8
381

Case 1:18-cv-01r—'4-CMA-SKC Document 71 Filed r" "17/19 Page 9 of 9
Appellate Case: 19-106k. Document: 010110286839 Date ...ad: 01/14/2029 Page: 382

IV. CONCLUSION
For the reasons set forth above, Plaintiffs Objection (Doc. # 46) is OVERRULED
and Magistrate Judge Crews' Recommendation (Doc. # 42) is AFFIRMED and
ADOPTED.
Accordingly, it is ORDERED that Plaintiff Elet Valentine's Motion for an Ex Parte
Temporary Restraining Order and Preliminary Injunction (Doc. # 6) is DENIED.

DATED: January 7, 2019

BY THE COURT:

tt? \
CHRISTINE M. ARGI LLO
United States District Judge

382

APPENDIX K
CASE NO.: 19-1466

IN THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

ELET VALENTINE
Plaintiff-Appellant
v.
PNC FINANCIAL SERVICES GROUP, INC.; PNC BANK, NATIONAL
ASSOCIATION (AKA PNC BANK, N.A.); AND PNC MORTGAGE
Defendants-Appellees

SEPTEBMER 28, 2019

RECOMMENDATION OF THE UNITED STATES JUDGE RE: ECF #6

BEFORE: MAGISTRATE KATO S. CREW

Appendix K

Case 1:18-cv-0194-CMA-SKC Document 42 Filed 0908/18 Page 1 of 14
Appellate Case: 19-156k,

Jocurnent: 010110286838 Date

.1: 01/15/2029 Page: 325

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Magistrate Judge S. Kato Crews
Civil Action No. 1:18-cv-01934-CMA-SKC
ELET VALENTINE
Plaintiff,
v.
PNC FINANCIAL SERVICES GROUP, INC.;
PNC BANK, NATIONAL ASSOCIATION;
PNC MORTGAGE,
Defendants.

RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE RE: ECF #6

United States Magistrate Judge S. Kato Crews
This matter is before the Court on Plaintiffs Motion for an Ex Parte Temporary
Restraining Order and Preliminary Injunction ("Motion"), filed August 2, 2018. [ECF #6.]
District Court Judge Arguello referred the Motion to this Court on August 3, 2018. [ECF
#10.] This Court has carefully considered the Motion and related briefing,1 the entire case
file and applicable case law, and has determined that a hearing would not materially assist

1 The related briefing includes Defendants' Opposition to Motion for Ex Parte Temporary
Restraining Order or Preliminary Injunction [ECF #26]; Plaintiffs Brief in Support of a
Motion for Ex Parte Temporary Restraining Order or Preliminary Injunction [ECF #25];
Plaintiffs Amended Brief in Support of a Motion for Ex Parte Temporary Restraining Order
or Preliminary Injunction [ECF #35]; and the exhibits attached to these filings. The Court
also considered the Motion in the context of Plaintiffs Amended Verified Complaint for
Damages and Jury Demand ("Amended Complaint") [ECF #36], filed after the Motion.
Defendant did not oppose the filing of the Amended Complaint. [ECF #34.]

1
325

Case 1:18-cv-01°°4-CMA-SKC Document 42 Filed 001°8/18 Page 2 of 14
Appellate Case: 19-1Nti, Document: 010110286838 Date ,

01/15/2020 Page: 326

to resolve the Motion. For the following reasons, the Court RECOMMENDS the Motion
be DENIED.
A. BACKGROUND
Plaintiff proceeds pro se in this matter. She commenced this action alleging 11
claims for relief against the lender-Defendants related to their handling of her residential
mortgage loan, which resulted in Colo. R. Civ. P. 120 proceedings in state court (the "Rule
120 Proceeding"). On August 1, 2018, the state court issued an order authorizing the
foreclosure sale of Plaintiffs home pursuant to C.R.S. § 38-38-101 et seq. Defendants
have yet to proceed with a foreclosure sale of the property. They have instead voluntarily
agreed to forego the sale at least until a ruling on the Motion. Thus, the Rule 120
Proceeding remains pending because the entire process provided by C.R.S. § 38-38-101
et seq. has yet to fully conclude.
Plaintiffs claims for relief include: (1) equitable tolling; (2) breach of promissory
note; (3) breach of deed of trust; (4) unjust enrichment; (5) fraud in the inducement; (6)
fraudulent concealment; (7) fraudulent misrepresentation; (8) vicarious liability; (9) abuse
of process; (10) unfair and deceptive acts or practices under the Colorado Consumer
Protection Act; and (11) extreme and outrageous conduct. [ECF #36.] Generally,
Plaintiffs claims arise out of allegations that, for at least a ten-year period, Defendants
failed to properly apply, or otherwise account for, her monthly mortgage payments;
inflated her account with improper and unexplained additional fees and charges;
improperly instigated state court foreclosure proceedings; and, by their handling of her
account, violated certain federal and state laws and breached provisions of the
promissory note and deed of trust. [See generally ECF #36.] Plaintiff argues that her

326

Case 1:18-cv-01994-CMA-SKC Document 42 Filed 09/98/18 Page 3 of 14
Appellate Case: 19-1401!

Document: 010110288838 Date i

4: 01/14/2029 Page: 327

claims predate the underlying Rule 120 Proceeding and that none of their elements
"complain about injury as a result of the Rule 120 Hearing." [ECF #25 p.11; ECF #35
p.41.]
In the Motion, Plaintiff seeks injunctive relief for the following reasons:
...to prevent PNC, PNC's Officers, agent(s), servants, employees, assigns,
constable, sheriffs, Justices of the Peace, attorneys and/or others unnamed
from directly or indirectly executing or conducting the Trustee Sale
scheduled for August 2, 2018, while property (sic) is subject to ongoing
litigation[,]
...from otherwise subjecting the property to a potentially (sic) transfer of
possession, altering of title, other documents, selling to third parties, taking
possession of the property, or any other alteration from its original and
current state while the property is the subject to ongoing litigation, [and,]
...to preserve the primary evidence in its original form in this case, the
integrity of the judicial process, and the status quo, pending the
determination of the merits for litigation.
[ECF #6 p.3.] [Emphasis added.]
In her two related briefs [ECF #25 and #35] (the "Briefs"), however, Plaintiff
describes the injunctive relief she seeks quite differently from what she articulates in the
Motion. In her Briefs, Plaintiff argues for injunctive relief to prevent Defendants from
. destroying documents relevant to their handling of all aspects of her mortgage loan. [See
generally ECF #25 and #35.] In other words, while Plaintiffs Motion seeks injunctive relief
to prevent the pending foreclosure sale, her subsequent Briefs seek injunctive relief to
require Defendants to preserve documents relevant to the claims and defenses in this
action. As a result, the Court construes Plaintiffs Briefs as a separate request or motion
to preserve evidence.

3
327

Case 1:18-cv-01P°4-CMA-SKC Document 42 Filed 0P" 8/18 Page 4 of 14
Appellate Case: 19-100k. Document: 010110288838 Date

B.

01/14/2020 Page: 328

LEGAL STANDARDS
Review of a Pro Se Party's Filings
A federal court must construe a pro se plaintiff's pleadings "liberally" and hold the

pleadings "to a less stringent standard than formal pleadings filed by lawyers." Smith v.
United States, 561 F.3d 1090, 1096 (10th Cir. 2009). "[The] court, however, will not supply
additional factual allegations to round out a plaintiffs complaint or construct a legal theory
on plaintiffs behalf." Id. (citing Whitney v. New Mexico, 113 F.3d 1170, 1173-74 (10th
Cir. 1997)). The Tenth Circuit has interpreted this rule to mean:
[I]f the court can reasonably read the pleadings to state a valid claim on
which the plaintiff could prevail, it should do so despite the plaintiffs failure
to cite proper legal authority, his confusion of various legal theories, his poor
syntax and sentence construction, or his unfamiliarity with pleading
requirements.
Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991). This interpretation is qualified in
that it is not "the proper function of the district court to assume the role of advocate for the
pro se litigant." Id.; see also Dunn v. White, 880 F.2d 1188, 1197 (10th Cir. 1989) ("[W]e
will not supply additional facts, nor will we construct a legal theory for plaintiff that
assumes facts that have not been pleaded.").
Preliminary Injunction
Federal Rule of Civil Procedure 65(a) and (b) govern preliminary injunctions and
temporary restraining orders. Where, as here, "the opposing party has notice, the
procedure and standards for issuance of a temporary restraining order mirror those for a
preliminary injunction." Emmis Commc'ns Corp. v. Media Strategies, Inc., No. 00-WY-

4
328

Case 1:18-cv-010"4-CMA-SKC Document 42 Filed 0c"'"8/18 Page 5 of 14
Appellate Case: 19-14Ori, Document: 010110288E36 Date

J: 01/14/2029 Page: 329

2507CB, 2001 WL 111229, at *2 (D. Colo. Jan. 23, 2001) (citing 11A Charles Alan Wright,
et al., Federal Practice and Procedure § 2951 (2d ed.1995)).
Injunctive relief is an extraordinary remedy which should only be granted when the
moving party clearly and unequivocally demonstrates its necessity. See Schrier v. Univ.
of Co/o., 427 F.3d 1253, 1258 (10th Cir. 2005). Granting such "drastic relief" is the
exception rather than the rule. United States ex rel. Citizen Band Potawatomi Indian Tribe
of Okla. v. Enter. Mgmt. Consultants, Inc., 883 F.2d 886, 888-89 (10th Cir.1989); GTE
Corp. v. Williams, 731 F.2d 676, 678 (10th Cir. 1984). In the Tenth Circuit, a party
requesting injunctive relief must clearly establish the following: (1) the party will suffer
irreparable injury unless the injunction issues; (2) the threatened injury outweighs
whatever damage the proposed injunction may cause the opposing party; (3) the
injunction, if issued, would not be adverse to the public interest; and, (4) there is a
substantial likelihood of success on the merits. Id. "The purpose of a preliminary injunction
is not to remedy past harm but to protect plaintiffs from irreparable injury that will surely
result without their issuance." Schrier, 427 F.3d at 1267. Moreover,
[b]ecause the limited purpose of a preliminary injunction is
merely to preserve the relative positions of the parties until a
trial on the merits can be held, we have identified the following
three types of specifically disfavored preliminary injunctions...
(1) preliminary injunctions that alter the status quo; (2)
mandatory preliminary injunctions; and (3) preliminary
injunctions that afford the movant all the relief that [she] could
recover at the conclusion of a full trial on the merits.
Id. at 1258-59 (citations omitted). These disfavored injunctions are "more closely
scrutinized to assure that the exigencies of the case support the granting of a remedy that
is extraordinary even in the normal course." Id. at 1259.

329

Case 1:18-cv-01°'M-CMA-SKC Document 42 Filed 001'8/18 Page 6 of 14
Appellate Case: 19-160i. Jocument: 0101102861 36 Date _J: 01/16/2020 Page: 330

3.

Preservation of Evidence

The Federal Rules of Civil Procedure require parties to take steps to preserve
relevant evidence, including electronic and physical evidence. Thus, a specific order from
the court directing one or both parties to preserve evidence is not ordinarily required. The
courts have inherent power, however, to make such an order when necessary. See
United States ex rel. Smith v. The Boeing Co., 05-1073—WEB, 2005 WL 2105972, *2 (D.
Kan. Aug. 31, 2005) (citing Pueblo of Laguna v. United States, 60 Fed. Cl. 133, 135 (Fed.
Cl. 2004)). In such cases, the courts are guided by principles of equity, including
consideration of the following factors: (1) how much of a concern there is for the
maintenance and integrity of the evidence in the absence of an order; (2) any irreparable
harm likely to result absent a specific order directing preservation; and, (3) the capability
of the party to maintain the evidence sought to be preserved. Id. (citing Capricorn Power
Co. v. Siemens Westinghouse Power Co., 220 F.R.D. 429, 433 (W.D. Pa. 2004)).
Federal courts are not equipped to micro-manage litigants' discovery-conduct.
Therefore, parties are under the ongoing obligation to "preserve documents that may be
relevant to pending or imminent litigation." Cache La Poudre Feeds, LLC v. Land O'Lakes,
Inc., 244 F.R.D. 614, 620 (D. Colo. 2007) (citation omitted). If a party violates this duty,
"[t]he court has inherent power to impose sanctions for the destruction or loss of
evidence." Id. (citation omitted).
C. ANALYSIS
The Court recommends denying the Motion because it seeks an injunction to
prohibit the underlying and pending foreclosure sale from going forward. As a result, the
relief Plaintiff seeks would alter the status quo because it would require the Court to

6
330

Case 1:18-cv-01" 4-CMA-SKC Document 42 Filed 0°"8118 Page 7 of 14
Appellate Case: 19-1@ek. Jocument: 010110286836 Date E J: 01/15/2029 Page: 331

intervene in pending state court proceedings. For this reason, the injunctive relief sought
by Plaintiff "constitutes a specifically disfavored injunction" that "must be more closely
scrutinized." See Schrier, 427 F.3d at 1261. Accordingly, the Motion must be denied
unless Plaintiffs "right to relief [is] clear and unequivocal." Id. at 1258.
Here, Plaintiff has failed to demonstrate that she is substantially likely to succeed
on the merits of any of her 11 claims in a manner to achieve this Court's intervention in
the pending Rule 120 Proceeding. See Schrier, 427 F.3d at 1258. As already mentioned,
Plaintiff seeks injunctive relief: "to prevent [Defendants] from directly or indirectly
executing or conducting the Trustee Sale;" to prevent Defendants "from otherwise
subjecting the property to a potentially (sic) transfer of possession, altering of title,
...selling to third parties, taking possession of the property, or any other alteration from
its original and current state;" and, "to preserve the primary evidence [presumably the
home] in its original form in this case..." [ECF #6 p.3.] For the reasons discussed below,
the Court recommends holding that there is little or no likelihood of success on the merits
of any of Plaintiffs claims pursuant to which she seeks injunctive relief because the
injunction she seeks is barred under the Younger abstention doctrine.
Because the underlying foreclosure sale is pending, the Court concludes the
Younger abstention doctrine applies. "Younger abstention dictates that federal courts not
interfere with state court proceedings by granting equitable relief—such as injunctions of
important state proceedings or declaratory judgments regarding constitutional issues in
those proceedings—when such relief could adequately be sought before the state court."
Rienhardt v. Kelly, 164 F.3d 1296, 1302 (10th Cir. 1999). Younger abstention applies
when:

7
331

Case 1:18-cv-010'14-CMA-SKC Document 42 Filed 001°8/18 Page 8 of 14
Appellate Case: 19-106i, .document: 010110286836 Date i J: 01/14/2029 Page: 332

(1) there is an ongoing state criminal, civil, or administrative proceeding, (2)
the state court provides an adequate forum to hear the claims raised in the
federal complaint, and (3) the state proceedings involve important state
interests, matters which traditionally look to state law for their resolution or
implicate separately articulated state policies.
Chapman v. Oklahoma, 472 F.3d 747, 749 (10th Cir. 2006) (quoting Crown Point I, LLC
v. Intermountain Rural Elec. Ass'n, 319 F.3d 1211, 1215 (10th Cir. 2003)). If those three
conditions exist, "Younger abstention is non-discretionary and, absent extraordinary
circumstances, a district court is required to abstain." Id. (quoting Crown Point I, LLC, 319
F.3d at 1215).
The Court concludes that all three Younger conditions exist regarding the
injunction Plaintiff seeks. First, the Rule 120 Proceeding is ongoing. All that has so far
occurred in the Rule 120 Proceeding is issuance of the order authorizing sale. Once a
state court authorizes a sale, the public trustee advertises and conducts the sale and the
property is then sold to the highest bidder who then receives a certificate of purchase.
C.R.S. §§ 38-38-102, -103, -106; see also Beeler Props., LLC v. Lowe Enter. Residential
Inv'rs, LLC, No. 07-cv-00149-MSK-MJW, 2007 WL 1346591, at *2 (D. Colo. May 7, 2007)
(discussing the foreclosure process prior to the amendments to C.R.S. § 38-38-101 et
seq. that were effective January 1, 2008). The borrower may cure the default prior to the
sale date; the sale typically occurs 110 to 125 days after the public trustee records the
Notice of Election and Demand. C.R.S. §§ 38-38-104 (re: cure), -108 (re: sale date). Cure
thus annuls the sale. C.R.S. § 38-38-104(d)(I). If the owner fails to cure, and upon
expiration of the redemption period (reserved for junior lienors only), then title to the
property vests in the holder of the certificate of purchase eight days after the sale, and a
confirmation deed issues. C.R.S. § 38-38-501. As a, result, there are several remaining

8
332

Case 1:18-cv-01"4-CMA-SKC Document 42 Filed 0P'''8/18 Page 9 of 14
Appellate Case: 19-1M1, Jocument: 010110286836 Date _A: 01/15/2029 Page: 333

steps to occur in the pending Rule 120 Proceeding. Plaintiffs rights in the property are
not ultimately extinguished until after the cure period or title to the property vests in the
holder of the certificate of purchase.2 See C.R.S. § 38-38-501; see also Haney v. Fed.
Nat'l Mortg. Ass'n, No. 16-cv-01296-PAB-STV, 2017 WL 1404103, at *4 (D. Colo. Mar. 9,
2017) (homeowner's rights in the property were not extinguished until after title vested in
the holder of the certificate of purchase); Commonwealth Prop. Advocates, LLC v. U.S.
Bank Nat. Ass'n, No. 10-cv-00657-WYD-KMT, 2011 WL 386783, at *2 (D. Colo. Feb. 2,
2011) ("Given the nature of the Colorado foreclosure process...I find that final
adjudication has not yet occurred, and I must abstain from reaching Plaintiffs request for
declaratory relief under the rule of Younger...").
Second, due to the nature of the injunctive relief Plaintiff seeks—i.e., stopping the
foreclosure sale—the Court concludes that state court provides an adequate forum for
any claims Plaintiff has which may allow for such relief. The Court notes that this particular
Younger factor is a difficult call when considering the complex and numerous issues
raised by Plaintiff in her Amended Complaint [ECF #36], and when considering the limited
scope of proceedings under Colo. R. Civ. P. 120(d). But the specific injunction Plaintiff

2 The Court is mindful that whether a Rule 120 proceeding remains "pending" after the
mere issuance of an order authorizing sale appears an amorphous issue when reviewing
decisions from this District. Compare Kramer v. Vigil, No. 13-cv-00142-PAB-KLM, 2013
WL 2285076, at *3 (D. Colo. May 22, 2013) (federal suit challenging Rule 120
determinations by state court not subject to Younger abstention because order
authorizing sale issued) with Beeler Props., LLC, 2007 WL 1346591, at *3 (federal suit
challenging Rule 120 determinations by state court subject to Younger abstention
depending on the stage in the foreclosure process.). However, due to the statutory steps
that have yet to occur in this case, as described above, this Court concludes that Plaintiffs
Rule 120 Proceeding is still pending, particularly considering Defendants' current
voluntary stay of the foreclosure sale and Plaintiffs pending opportunity to cure the
default.

9
333

Case 1:18-cv-019''4 -CMA-SKC Document 42 Filed 091"ci/18 Page 10 of 14
Appellate Case: 19-1466, .document: 010110288836 Dater J: 01/14/2020 Page: 334

seeks is one to prevent the foreclosure sale from going forward. [ECF #6 p.3.] Colorado
Rule of Civil Procedure 120 provides the specific state-court avenue for obtaining court
orders authorizing a foreclosure sale. It further provides a mechanism for interested
parties, like Plaintiff, to oppose an order authorizing sale by filing a response with the
state court describing "the facts the respondent relies on in objecting to the issuance of
an order authorizing sale, and may include copies of documents which support the
respondent's position," and by presenting evidence at a hearing. Colo. R. Civ. P. 120(c)
and (d). A homeowner who unsuccessfully opposes an order authorizing sale has an
opportunity to cure default and retain ownership of the property prior to a sale. C.R.S.
§ 38-38-104. Thus, state court appears an adequate forum for Plaintiffs claims seeking
relief related to the pending foreclosure sale. See Gordon v. Wells Fargo Bank, N.A., No.
11-cv-00123-BNB, 2011 WL 1557866, at *3 (D. Colo. April 25, 2011); Dean v. JP Morgan
Chase Bank Nat. Ass'n, No. 10-cv-00539-PAB-MJW, 2011 WL 782727, at *2 (D. Colo.
Feb. 28, 2011); Edward v. Dubrish, No. 07-cv-02116-REB-KMT, 2009 WL 1683989, at
*11 (D. Colo. June 15, 2009).
Third, actions "that challenge the Rule 120 order and process are proceedings
involving important state interests concerning title to real property located and determined
by operation of state law." Beeler Props., LLC, 2007 WL 1346591, at *3. Further, matters
concerning foreclosures have traditionally been resolved in the state courts. Gordon,
2011 WL 1557866, at *3 (citing C.R.C.P. 120(f)). For these reasons, the third Younger
factor is also satisfied.
To be sure, the Court further concludes that Plaintiff has not shown she will suffer
irreparable harm without an injunction to prevent the foreclosure sale. Weitzel v. Div. of

10
334

Case 1:18-cv-019"-CMA-SKC Document 42 Filed 091")9/18 Page 11 of 14
Appellate Case: 19-106t. .document: 010110286838 Date' J: 01/15/2020 Page: 335

Occupational & Prof'l Licensing, 240 F.3d 871, 876 (10th Cir. 2001) (the Younger
abstention doctrine is inapplicable in extraordinary circumstances where irreparable injury
can be shown). The foreclosure of property translates to economic loss which usually
does not, in and of itself, constitute irreparable harm; such losses are compensable by
monetary damages. Tatten v. City & Cty. of Denver, No. 16-cv-01603-GPG, 2016 WL
10518586, at *2 (D. Colo. July 19, 2016) (internal quotations and citation omitted). And,
Colorado law provides Plaintiff an opportunity to cure the default prior to the foreclosure
sale. C.R.S. § 38-38-104.
For these reasons, the Court recommends finding that the Younger abstention
doctrine precludes this Court from issuing the injunction Plaintiff seeks to halt the
underlying foreclosure sale, and therefore, Plaintiff has not shown a probability of success
on the merits of any of her claims which may be relevant to the injunctive relief she seeks;
nor has she shown irreparable harm.3 Thus, the Court recommends denial of the Motion
[ECF #6] based on Younger abstention. See Beeler Props., LLC, 2007 WL 1346591, at'
*3 (Ty there has been no final determination of the rights of the parties because the
foreclosure process was not concluded, then the Court should abstain under the Younger
doctrine.")

3 Defendants argue application of the Rooker-Feldman doctrine to deny the Motion. That
doctrine bars federal district courts from conducting appellate-type review of state court
judgments, including judgments authorizing the sale of property. See Campbell v. City of
Spencer, 682 F.3d 1278, 1279-80 (10th Cir. 2012) (citing Rooker v. Fid. Trust Co., 263
U.S. 413 (1923) and D.C. Ct. App. v. Feldman, 460 U.S. 462 (1983)); Fick v. US Bank
Nat'l Ass'n, No. 11-cv-03184-WYD-KLM, 2011 WL 6941751, at *3 (D. Colo. Dec. 15,
2011). The Court finds, however, that this doctrine does not apply here due to the absence
of a state court judgment in the Rule 120 Proceeding. See Dillard v. Bank of New York,
476 F. App'x 690, 692 n.3 (10th Cir. 2012); Silva v. US Bank Nat'l Assoc., 294 F. Supp.3d
1117, 1128-29 (D. Colo. 2018).

11
335

Case 1:18-cv-019"-CMA-SKC Document 42 Filed 09'''4/18 Page 12 of 14
Appellate Case: 19-156

Document: 010110288830 Date i _J: 01/15/2020 Page: 336

Insofar as the Motion (by way of Plaintiffs Briefs) seeks an order to require
Defendants to preserve evidence, the Court recommends denying the Motion as
premature. This case remains at its early stages, including Plaintiffs filing of her Amended.
Complaint on, September 17, 2018. [ECF #36.] Discovery has yet to commence.
No showing has been made of a significant threat that documents will be lost or
destroyed absent an immediate order. For example, the Court understands Plaintiff to
allege that the 2010 and 2013 loan modification documents have never been recorded or
produced, and that these documents "will become destroyed or altered" without an
emergency order from the Court. [ECF #25 pp.12, 17; ECF #35 pp.28; 34.] Defendants,
however, attached the 2010 loan modification as Exhibit G to their Response, and the
2013 loan modification as Exhibit I to their Response. [ECF #26-7 and #26-9.]
Defendants' Response attaches 12 exhibits consisting of the 2003 Note; 2003 Note
Allonge; 2003 Deed of Trust; affidavits of merger; loan modifications; 2017 payment
history; correspondence between the parties; and other documents relevant to the parties'
claims and defenses. [See generally the exhibits to ECF #26.] Also, the transcript of the
Rule 120 Proceeding (attached as Exhibit 6 to the Motion) shows that the state court
reviewed "yearly ledgers" produced by Defendants "that reflect all of the activity on
[Plaintiffs] account...for each year and I believe they start with 2003 and go through
...there's one for 2017, maybe even 2018." [ECF #6 p.19.]
For these reasons, it appears Defendants have in fact preserved documents
relevant to the claims and defenses in this case consistent with their obligations under
the Federal Rules of Civil Procedure. The Court is not persuaded that a Preservation
Order is appropriate now or that it would serve any useful purpose considering the lack

12
336

Case 1:18-cv-019'^-CMA-SKC Document 42 Filed 09/" 51/18 Page 13 of 14
Appellate Case: 19-158E, .document: 010110288E38 Dater is 01/15/2029 Page: 337

of any showing that Defendants will lose or destroy evidence absent an immediate order.
Accordingly, the Court finds that the Plaintiff has failed to show any irreparable harm likely
to result in the absence of a preservation order.
D. RECOMMENDATION
For the above-reasons, the Court RECOMMENDS the Motion be DENIED.
Further, to the extent Plaintiffs Briefs are read together with the Motion as seeking a
preservation order, the Court RECOMMNEDS that this relief also be DENIED.4

NOTICE: Pursuant to 28 U.S.C. § 636(b)(1)(C) and Fed. R. Civ. P. 72(b)(2), the parties
have fourteen (14) days after service of this recommendation to serve and file
specific written objections to the above recommendation with the District Judge
assigned to the case. A party may respond to another party's objections within
fourteen (14) days after being served with a copy. The District Judge need not
consider frivolous, conclusive, or general objections. A party's failure to file and
serve such written, specific objections waives de novo

review of the

recommendation by the District Judge, and waives appellate review of both factual
and legal questions. Thomas v. Am, 474 U.S. 140,148-53 (1985); Makin v. Colorado
Dep't of Corrs., 183 F.3d 1205,1210 (10th Cir. 1999); Talley v. Hesse, 91 F.3d 1411,
1412-13 (10th Cir. 1996).

In making this recommendation, the court is not making any findings or conclusions
regarding the pending motion to dismiss [ECF. #40] or any arguments made therein.

4

13
337

Case 1:18-cv-019'' A-CMA-SKC Document 42 Filed 091-)q/18 Page 14 of 14
Appellate Case: 19-106fb Jocument: 0101102888Z8 Date t „A: 01/15/2029 Page: 338

DATED:

September 28, 2018

BY THE COURT:

S. Kato Crews
United States Magistrate Judge
District of Colorado

14
338

